                    OFFICE OF INSPECTOR GENERAL

                                        http://www.oig.hhs.gov/



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended
by Public Law 100-504, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and inspections
conducted by the following operating components:


Office of Audit Services

The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine the
performance of HHS programs and/or its grantees and contractors in carrying out their respective
responsibilities and are intended to provide independent assessments of HHS programs and operations in
order to reduce waste, abuse, and mismanagement and to promote economy and efficiency throughout the
Department.


Office of Evaluation and Inspections

The OIG's Office of Evaluation and Inspections (OEI) conducts short-term management and program
evaluations (called inspections) that focus on issues of concern to the Department, the Congress, and the
public. The findings and recommendations contained in the inspection reports generate rapid, accurate,
and up-to-date information on the efficiency, vulnerability, and effectiveness of departmental programs.


Office of Investigations

The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment by
providers. The investigative efforts of OI lead to criminal convictions, administrative sanctions, or civil
monetary penalties. The OI also oversees State Medicaid fraud control units which investigate and
prosecute fraud and patient abuse in the Medicaid program.


Office of Counsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support in OIG’s internal
operations. The OCIG imposes program exclusions and civil monetary penalties on health care providers
and litigates those actions within the Department. The OCIG also represents OIG in the global settlement
of cases arising under the Civil False Claims Act, develops and monitors corporate integrity agreements,
develops model compliance plans, renders advisory opinions on OIG sanctions to the health care
community, and issues fraud alerts and other industry guidance.
                             EXECUTIVE SUMMARY

PURPOSE

          Examine obstetrician barriers to offering HIV testing to pregnant women and newborns in order
          to reduce the incidence of perinatally transmitted HIV.

BACKGROUND

          This report originated from the Ryan White CARE Act Amendments of 2000 which mandated
          that a study be conducted regarding perinatal HIV transmission. The Secretary assigned
          responsibility for the study to the Health Resources and Services Administration (HRSA), who
          then requested that the Office of Inspector General conduct the study.

          Section 2628 of the law requests a study to determine “any barriers, including legal barriers,
          that prevent or discourage an obstetrician from making it a routine practice to offer pregnant
          women an HIV test and a routine practice to test newborn infants for HIV disease in
          circumstances in which the obstetrician does not know the HIV status of the mother.” To
          accomplish this, we conducted a national survey of obstetricians, a survey of obstetrician State
          representatives, a survey of State HIV/AIDS directors and in-depth case studies in six high
          prevalence States. These surveys are limited to the issues laid out in the law. It is important to
          recognize, however, that these issues do not represent the full spectrum of services necessary to
          prevent perinatal transmission.

          The mandate also requests “a determination of the number of newborn infants with HIV born in
          the United States with respect to whom the attending obstetrician for the birth did not know the
          HIV status of the mother.” The Centers for Disease Control and Prevention (CDC) agreed
          with our request to provide the specified estimate. Finally, the law directs the Secretary to
          provide to Congress information regarding States’ progress in fiscal year 2004.

REQUIRED ESTIMATE

In 2000, an estimated 80 to 110 HIV-infected infants were born to mothers who had
not been diagnosed prior to birth

          Of the 280-370 infants infected through perinatal transmission in 2000, the mother was not
          diagnosed with HIV until after the birth of the child in approximately 29 percent of the cases.
          Thus 80-110 HIV-infected infants were born to mothers who had not yet been diagnosed with
          HIV. If these women had been diagnosed and treated beginning in prenatal care, we estimate
          that the total number of HIV positive infants could be reduced by 70-90 infants, a decrease of
          25 percent in the overall transmission of perinatal HIV.



Reducing Barriers to HIV Testing                      i                                  OEI-05-01-00260
BARRIERS AFFECTING OBSTETRICIANS

PRENATAL SETTING: Obstetricians routinely offer HIV testing as part of their
standard prenatal practice; however, barriers affect approximately one-third of
obstetricians

          Ninety-three percent of obstetricians reported that they routinely offer HIV testing to their
          pregnant patients. However, 32 percent of all obstetricians, regardless of their testing practice,
          indicated ever facing a barrier that prevented them from offering an HIV test to a prenatal
          patient. Considering this, 66 percent of obstetricians reported both routinely testing and having
          never encountered a barrier. The top barrier, affecting 15 percent of obstetricians, was
          language. The next most frequently mentioned barriers were a patient’s late entry into prenatal
          care and the physician’s perception that their patient population is at low risk for HIV. The
          time involved in the pretest counseling and consent process were also mentioned as barriers by
          5 percent of obstetricians.

LABOR AND DELIVERY SETTING: Significant barriers prevent almost half of
obstetricians from routinely offering HIV testing during labor and delivery

          Only 48 percent of obstetricans reported routinely offering HIV testing to women with
          unknown status during labor, and 17 percent reported never offering testing during labor. At
          least one barrier was reported by 44 percent of obstetricians: 36 percent reported barriers
          related to the HIV counseling and consent process, and about 20 percent reported barriers
          related to limitations in HIV testing technology to produce timely results.

NEWBORNS: Obstetricians do not routinely test newborns for HIV, primarily
because it is not their responsibility

          Ninety-three percent of obstetricians reported that HIV testing of newborns is the responsibility
          of the newborn’s physician. Despite this fact, one-fifth of obstetricians report always
          recommending HIV testing for the newborn to the newborn’s physician in cases where the
          mother’s HIV status is unknown.

STATE EFFORTS: Almost all States report actions addressing obstetrician
barriers to offering HIV testing to all pregnant women

          Fifty States indicated that they have undertaken efforts to address barriers. While the extent of
          these efforts vary widely, they are primarily focused on provider education and training.
          Eighteen States indicated that they are engaged in monitoring and/or enforcement activities. A
          majority of States report that impacting private obstetrician testing practices is a major
          challenge, and about half of States report that competing priorities take precedence in their
          States.




Reducing Barriers to HIV Testing                      ii                                  OEI-05-01-00260
RECOMMENDATIONS

The CDC Should Facilitate the Development of Administrative Tools and States
Should Promote Administrative Tools to Make Prenatal HIV Testing Universally
Routine

          In order to encourage universal HIV screening of pregnant women, we recommend that the
          CDC and States develop administrative tools that ease the burden of the testing process and
          send a message that HIV screening is an expected part of prenatal care. These should include
          such things as prenatal forms that include HIV testing status and a simplified consent form that
          includes the minimum pretest information needed for informed consent. To assist in this effort,
          the CDC could develop model forms for the States to disseminate at the local level. States
          should work to have the model forms incorporated at the local level or ensure that HIV testing
          documentation on relevant medical charts is occurring.

The CDC and HRSA, in Collaboration with CMS, Should Facilitate Efforts to
Expand the Capacity to Offer Linguistically Appropriate HIV Patient Education and
Consent Materials

          The CDC, HRSA and Centers for Medicare & Medicaid Services (CMS) should coordinate
          their efforts to provide linguistically appropriate, culturally sensitive patient education materials.
          Also, maintaining referral information on qualified national language banks and telephone
          translation services could help to alleviate language barriers to offering HIV testing.

The CDC Should Facilitate Development and States’ Implementation of Protocols
for HIV Testing During Labor and Delivery in Order to Promote Testing in This
Setting as the Standard of Care

          The CDC should develop a model protocol for HIV testing of women with unknown HIV
          status at labor and delivery, encompassing counseling and consent during labor, technical
          capacity of hospital laboratories, and administrative handling of information on testing status.
          States should adopt and promote the CDC’s labor and delivery protocols and assist institutions
          in incorporating them.

The CDC Should Encourage and Assist States to Appropriately Monitor HIV
Testing of Pregnant Women

          The CDC should assist States in developing monitoring systems that are appropriate to State
          and local needs. The monitoring currently being conducted in several States offers a continuum
          of potential monitoring models for the rest of the country. These range from requiring providers
          to report HIV testing to assessing missed opportunities to prevent future HIV infection.




Reducing Barriers to HIV Testing                        iii                                   OEI-05-01-00260
The CDC, HRSA and States Should Promote Public/Private Partnerships to
Design, Implement and Institutionalize Targeted Efforts to Remove Obstetrician
Barriers

          The CDC and HRSA should utilize public/private partnerships in implementing all the
          recommendations in this report by expanding current partnership projects. States should also
          strive to incorporate private partners in implementing all the recommendations in this report.
          The CDC and HRSA could promote public/private partnerships by writing collaborative
          language into their grant applications and program guidance, and by offering technical assistance
          regarding building and sustaining partnerships.



AGENCY COMMENTS

          We received comments on our draft report from HRSA, CDC, CMS and American College
          Obstetricians and Gynecologists. Each organization indicated that the report presented useful
          information for shaping future efforts to increase the HIV testing rates of obstetricians and
          thereby reduce perinatal HIV transmission. Each organization also supported the substance of
          the recommendations. The CDC, however, expressed concern that they were called upon to
          take a leadership role, stating that their mission revolves around prevention rather than
          developing standards and guidelines for health care practice.

          We recognize that CDC is not always in the position to direct outside groups and that in these
          cases their leadership comes in the form of support and influence. We have modified our
          recommendations accordingly by emphasizing CDC’s ability to “facilitate” desirable actions and
          outcomes. By emphasizing CDC’s role as facilitator, we reflect on their initial success in
          promoting HIV testing of pregnant women via official recommendations for testing and through
          their administration of the perinatal prevention grants. We believe that, as part of their
          prevention mission, CDC has a powerful role to play in facilitating and orchestrating further
          efforts to ensure that HIV testing is offered to all pregnant women.

          We also recognize that the recommendations will require a broad array of resources beyond
          that which CDC alone can bring to bear. For this reason the recommendations are directed not
          at CDC alone, but CDC in collaboration with HRSA, CMS, and the States in public/private
          partnerships. We hope that all of the stakeholders mentioned, including private obstetricians,
          will actively collaborate with CDC to accomplish these recommendations.




Reducing Barriers to HIV Testing                     iv                                 OEI-05-01-00260
                              TABLE OF CONTENTS

                                                                                                                                    PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


FINDINGS

     HIV-Infected Infants Born to Undiagnosed Mothers . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


          Testing Routinely Offered During Prenatal Care, However Barriers Remain . . . . . . . . . . . . . 14


          Significant Barriers for Testing During Labor and Delivery . . . . . . . . . . . . . . . . . . . . . . . . . . 19


          Obstetricians Do Not Test Newborns; Not Their Responsibility . . . . . . . . . . . . . . . . . . . . . 23


          States’ Actions Addressing Obstetrician Barriers . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 24


RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 27


AGENCY COMMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 37


APPENDICES


          A: Obstetrician Barriers Identified by States . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 39

          B: State Laws, Regulations and Policies . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 43

          C: State Efforts to Address Obstetrician Barriers . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 47

          D: Methodology for National Estimate . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 51

          E: National Obstetrician Survey Instrument . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 59

          F: Confidence Intervals for Selected Point Estimates . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 63

          G: Logistic Regression Models . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 65

          H: Non-Response Analysis . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 69

          I: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 71

          J: End Notes . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 79


ACKNOWLEDGMENTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 83





Reducing Barriers to HIV Testing                                      v                                              OEI-05-01-00260
                                    INTRODUCTION

PURPOSE

          Examine obstetrician barriers to offering HIV testing to pregnant women and newborns in order
          to reduce the incidence of perinatally transmitted HIV.

BACKGROUND

          This report originated from the Ryan White CARE Act Amendments of 2000 which mandated
          that a study be conducted to provide the following information:

          1.	        For the most recent fiscal year for which the information is available, a determination of
                     the number of newborn infants with HIV born in the United States with respect to
                     whom the attending obstetrician for the birth did not know the HIV status of the
                     mother.
          2.	        A determination for each State of any barriers, including legal barriers, that prevent or
                     discourage an obstetrician from making it a routine practice to offer pregnant women an
                     HIV test and a routine practice to test newborn infants for HIV disease in
                     circumstances in which the obstetrician does not know the HIV status of the mother of
                     the infant.
          3.	        Recommendations for each State for reducing the incidence of cases of the perinatal
                     transmission of HIV, including recommendations on removing the barriers identified.1

          The Secretary assigned responsibility for this study to the Health Resources and Services
          Administration, who then requested that the Office of Inspector General (OIG) conduct the
          study. The Secretary is also required to provide Congress with information regarding States’
          progress in fiscal year 2004.

          In 1992, the annual incidence of perinatally-acquired AIDS peaked, and an estimated 907
          HIV-infected children were born. 2 In 1994, the Pediatric AIDS Clinical Trial Group (PACTG)
          Protocol 076 demonstrated that by administering the drug zidovudine (ZDV) during pregnancy
          and during delivery intravenously, and later to the newborns, doctors could reduce by two-
          thirds the risk of perinatal HIV transmission. The PACTG 076 study found that without the
          drug treatment HIV-infected women faced a 25 percent risk of transmitting HIV to their infants,
          however with zidovudine the transmission rate fell to 8 percent. Subsequent studies using
          multiple treatment strategies have achieved transmission rates as low as 1-2 percent.3




Reducing Barriers to HIV Testing                         1                                  OEI-05-01-00260
The CDC Guidelines for HIV Counseling and Testing of Pregnant Women

          In response to the success of the PACTG 076, the CDC, through the Department of Health
          and Human Services, Public Health Service (PHS) issued guidelines in 1995 recommending
          universal counseling and voluntary testing of all pregnant women and zidovudine treatment
          among those testing positive. The American College of Obstetricians and Gynecologists
          (ACOG), the American Academy of Pediatrics (AAP) and other professional associations
          endorsed these guidelines4, and most States have adopted either policies or laws that reflect the
          essence of the PHS guidelines.5

          In 1996, Congress commissioned the Institutes of Medicine (IOM) to conduct a study looking
          at further reducing perinatal HIV transmission.6 In 1999, the IOM’s report, Reducing the
          Odds: Preventing Perinatal Transmission of HIV in the United States, recommended the
          adoption of a national policy of universal HIV testing, with patient notification, as a routine
          component of prenatal care. This means that HIV testing would be conducted as one of the
          standard battery of prenatal tests, and that women would be informed of their right to refuse the
          test.

          Recently, CDC responded to the IOM report by issuing revised guidelines for voluntary HIV
          screening of pregnant women. Although CDC did not adopt the IOM’s central
          recommendation to include HIV testing with patient notification as part of the standard battery
          of prenatal testing, the revised CDC guidelines include simplification of the pretest process:
          CDC recommends that women receive the minimum information needed for consent to testing,
          and receive other HIV prevention education separate from the test. Differences from the
          original PHS guidelines include increased emphases on HIV testing as a routine component of
          prenatal care, on exploring and addressing reasons for test refusal, on testing and treatment at
          delivery for women with unknown HIV status, and on encouraging newborn testing if the
          mother’s status remains unknown postpartum.7

HIV Testing During Prenatal Care

          While there are multiple aspects related to the reduction of perinatal transmission, including
          accessing prenatal care, treatment acceptance and adherence to the medication regimen, an
          important aspect is being aware of HIV status in order to make informed decisions regarding
          treatment. The earlier the initiation of treatment, the lower the potential of passing HIV on to
          the child. Therefore, HIV testing during prenatal care is crucial for the best possible treatment
          outcomes.

          According to Pregnancy Risk Assessment Monitoring System (PRAMS) data from 14 States,
          between 58 to 81 percent of mothers received HIV testing during pregnancy in 1997. Women
          were most likely to receive prenatal counseling and testing who were: African-American,
          covered under Medicaid, under 25 years of age, seen by public health care providers, and who
          had less than a high school education. About 71 percent of mothers in States with high
          seroprevalence recall being tested for HIV, compared to 58 percent of mothers in low
          seroprevalence States.8

Reducing Barriers to HIV Testing                      2                                   OEI-05-01-00260
          The IOM study identified several barriers that prevented some health-care providers from
          offering HIV testing to all their pregnant patients.9 Some providers believed they could predict
          which women were at risk for HIV. As a result, they selectively offered the test to those
          perceived to be at risk. In addition, some providers reported that HIV testing protocols,
          especially pretest counseling requirements, were too burdensome to follow for all their pregnant
          patients. Other studies have identified some additional barriers, including insufficient time,
          reimbursement issues, informing a pregnant woman she is HIV positive, patient refusal, treating
          an HIV positive patient, concern about offending the patient by offering the test, late entry into
          prenatal care and low priority of HIV testing.10

HIV Testing at Labor and Delivery

          Studies have demonstrated that treatment at labor and delivery can reduce transmission risk by
          50 percent among women who have not received prenatal treatment. Women who have not
          received any prenatal care may be able to benefit from last minute treatment during labor if their
          HIV status can be determined. Perinatal surveillance data from CDC indicates that 14 percent
          of HIV-infected women did not receive prenatal care.11

          Because of the need to get HIV test results as quickly as possible in the labor/delivery setting,
          rapid and expedited HIV testing is receiving increasing attention. Currently, rapid testing is not
          in widespread use. In lieu of rapid testing, standard HIV tests can be expedited by using on-
          site laboratories and running the tests individually, instead of waiting to run them in batches.

          There is one rapid test, the Abbott/Murex Single Use Diagnostic Systems (SUDS) HIV-1,
          currently approved by the Food and Drug Administration (FDA) for marketing and use in the
          United States. This test returned to production as of April 2001 after being voluntarily pulled
          from the market by the manufacturer in October 2000 when finished lots began failing certain
          control specifications. Other rapid HIV tests are currently being reviewed by the FDA for
          approval. In order to promote the commercial distribution of a new generation of rapid HIV
          tests, FDA has committed to assisting device manufacturers who wish to bring rapid tests to
          market and to prioritizing the review of rapid HIV test applications. Despite the priority placed
          on bringing new rapid tests to market expeditiously, it is impossible to determine when these
          new tests will be available and it may be years before reliable rapid tests are widely used.

HIV Testing of Newborns

          The CDC recommends that a mother whose HIV status is unknown after delivery be informed
          that HIV testing is recommended for her newborn and could impact the child’s health.12 If
          newborns are identified as HIV-exposed,13 CDC guidelines recommend treatment to prevent
          HIV transmission within 6 to 12 hours after birth and treatment within 4 to 6 weeks to prevent a
          common opportunistic infection that is often fatal. New York mandates HIV testing of all
          newborns and Connecticut mandates newborn testing for infants whose mother’s HIV status is
          unknown.



Reducing Barriers to HIV Testing                      3                                   OEI-05-01-00260
Trends in Perinatal HIV Transmission

          The annual incidence of perinatally-acquired AIDS increased steadily from 1984 to its peak of
          907 in 1992.14 This was followed by an 83 percent decline in perinatal AIDS cases from
          1992 to 1999.15 The CDC attributes most of this decline to successful implementation of PHS
          guidelines for HIV testing and treatment.16 Births to HIV-infected women continue to decline,
          but do not fully explain the decline in rates of AIDS among infants. Rates of AIDS among
          infants declined 69 percent from 1992 to 1996 even though births to HIV positive women only
          declined by 17 percent.17 It is difficult to estimate trends in perinatal HIV incidence because
          the Survey of Childbearing Women was discontinued and all States do not report perinatally
          HIV exposed infants with follow-up to ascertain infection status. While all States report AIDS
          cases to CDC, only 34 States and 2 territories report HIV cases.18

          In the United States, approximately 6,000 to 7,000 HIV-infected women give birth each
          year.19 Without intervention, a 25 percent mother-to-infant transmission rate would result in the
          birth of an estimated 1,000-2,000 HIV-infected infants annually in the United States.20 By end
          of December of 2000, 1,611 children were reported to be living with HIV and an additional
          2,703 children were reported to be living with AIDS.21 Approximately 91 percent of all
          pediatric (under age 13) AIDS cases were attributed to perinatal transmission. 22 Through June
          1998, the majority of the cumulative number of perinatally acquired AIDS cases were
          diagnosed in the Northeast (44 percent), followed by the South (36 percent).23 In fact, New
          York, Florida, New Jersey and California accounted for 58 percent of all cases.24

The Health Resources and Services Administration

          The HIV/AIDS Bureau within the Health Resources and Services Administration (HRSA)
          provides funding to States and other entities for the delivery of health care and support services
          to individuals and families affected by HIV disease through the Ryan White CARE Act
          programs. Most HRSA programs related to perinatal HIV transmission are funded through
          Title IV grants, which allocated $65 million in 2001 to State and local programs. These
          services include primary and specialty medical care, psychosocial services, and logistical
          support for women and their families affected by HIV as well as outreach and prevention to
          provide a continuum of care for at-risk populations.25 Two other HRSA Bureaus, the Bureau
          of Health Professionals and the Bureau of Primary Health Care, administer programs that
          involve perinatal providers and underserved populations, respectively.

          The Maternal and Child Health Bureau (MCHB) provides block grant funding to States’
          Maternal and Child Health (MCH) programs to promote and improve the health of mothers
          and children. In addition to block grants, MCHB funds special projects including a grant to the
          American College of Obstetricians and Gynecologists (ACOG) that was used to create
          Perinatal HIV Prevention “Provider Partnerships” between obstetricians and State health
          departments in two States. The MCHB also administers the




Reducing Barriers to HIV Testing                      4                                   OEI-05-01-00260
          Healthy Start program in 94 sites to improve health care access and outcomes for women and
          infants by promoting healthy behaviors and combating the causes of infant mortality.

Current Projects of the Centers for Disease Control and Prevention

          One of CDC’s goals is to provide leadership in preventing and controlling HIV infection. The
          CDC pursues this goal through community, State, national, and international partnerships. The
          CDC's prevention efforts include support for State and local prevention activities, education
          programs, disease surveillance, and research designed to identify the most effective
          interventions to combat HIV. The CDC has established a supplemental funding program to
          specifically address perinatal HIV prevention through grants for the following several
          programs.26

          Using HIV Perinatal Prevention Cooperative Agreements, CDC has awarded $6,300,000
          annually since 1999 to 16 State and local health departments to reach pregnant women at high
          risk for HIV. The goals include ensuring that healthcare providers counsel pregnant women on
          HIV testing, making voluntary HIV testing available to pregnant women whenever and
          wherever they access the medical care system, ensuring that infected or at-risk women receive
          appropriate prenatal care and ensuring women and infants’ access to appropriate prevention
          interventions and treatment services.

          In 2000, 26 State and local health departments were funded at a total of $1,867,000 to
          conduct on-going enhanced surveillance of newborns who have been perinatally exposed or
          infected with HIV. Health departments collect extensive surveillance data about mother-infant
          pairs using a wide variety of medical records, birth and death certificates and laboratory
          reports. One of the goals of this project is to assist in evaluating perinatal prevention efforts.
          For example, some health departments are using the data gathered to examine “missed
          opportunities” in prevention in cases where a newborn was infected.

          The CDC allocated $933,000 in 2000 in professional education and training grants to six
          grantees. Grants went to two organizations for MCH programs: CityMatCH, dedicated to
          improving maternal and child health in urban areas, and the Association of Maternal and Child
          Health Programs (AMCHP) who works with State public health MCH programs. The
          CityMatCH funding will support three “Urban Perinatal HIV Prevention Learning Clusters.”
          The Urban Learning Clusters, teams of scientists, issue experts, policy-makers and
          practitioners, promote the translation of research and data into effective practice in urban
          communities with the highest rates of perinatal HIV. The funding to AMCHP will support eight
          State “Action Learning Labs.” These working groups bring together cross-program teams of
          State health officials, obstetricians and other key players involved in the prevention of the
          perinatal transmission of HIV.

          The other four organizations to which CDC awarded professional education and training grants
          include: ACOG, AAP, the National Pediatric and Family HIV Resource Center and the AIDS
          Alliance for Children, Youth & Families. These funds are used to educate health care
          providers about the importance of HIV counseling and testing and ways to prevent the
          transmission of perinatal HIV. Grants include provisions to evaluate

Reducing Barriers to HIV Testing                       5                                   OEI-05-01-00260
          providers’ knowledge, attitudes, and behaviors. In particular, ACOG used their funding to
          conduct a national survey of obstetricians, and disseminate prevention materials to obstetricians.
          Their survey revealed a reduction in barriers after broad distribution of their professional and
          patient materials on perinatal HIV.

          In addition to the Congressional funding described above for perinatal HIV prevention
          activities, CDC also supports a number of research projects addressing perinatal HIV
          transmission. These include: 1) the Perinatal Guidelines Evaluation project, 2) the Perinatal
          AIDS Collaborative Transmission study, 3) the Pediatric Spectrum of Disease Project, and 4)
          the Mother-Infant Rapid Intervention At Delivery (MIRIAD).

          The MIRIAD study explores HIV testing and treatment during labor and delivery for women
          whose testing status is unknown at delivery. This study explores voluntary HIV testing with
          informed consent during labor or soon after birth. The MIRIAD study will result in a protocol
          for HIV testing in the delivery setting that will be generalizable to non-research hospital settings.
          This 4 year study includes researchers in five metropolitan areas.

The Centers for Medicare & Medicaid Services

          The Centers for Medicare & Medicaid Services (CMS) oversees the Medicaid program,
          which includes expanded eligibility for pregnant women (to at least 133% of the Federal
          Poverty Level) to ensure access to prenatal care. Medicaid serves over 50 percent of adults
          and 90 percent of children with AIDS.27 Of the 18 million Medicaid-eligible women, CMS
          estimates that approximately 32,000 are HIV-infected and approximately 3,000 are HIV-
          infected and pregnant.28

          The CMS developed the Maternal HIV Consumer Information Project (CIP) to increase
          patient and provider knowledge about prevention of perinatal HIV transmission. Specifically,
          CMS developed patient education brochures, posters and videos for States to use in order to
          promote the benefits of prenatal HIV testing and to raise awareness of Medicaid eligibility and
          coverage for prenatal care. The CMS initiated this project in 1995 as a demonstration project
          and has since expanded in some form to all States, the District of Columbia and Puerto Rico.

SCOPE

          The scope of this evaluation is delineated in Section 213 of the Ryan White Reauthorization Act
          of 2000. This section of the law requests an evaluation to identify the barriers that may
          discourage or prevent an obstetrician from routinely offering HIV tests to all pregnant women
          and/or all newborns whose mother’s HIV status is unknown. In accordance with this mandate,
          our study focused solely on obstetricians and did not attempt to identify barriers faced by other
          providers of obstetric care such as family physicians or certified nurse midwives. The ACOG
          estimates that non-obstetricians deliver 15 percent of all births, and that a greater, yet unknown,
          percentage of prenatal care is provided by family physicians and certified nurse midwives.29
          Also in keeping



Reducing Barriers to HIV Testing                        6                                   OEI-05-01-00260
          with the specific mandate laid out in the law, our study focused only on barriers obstetricians
          face in offering HIV testing, as opposed to barriers that would prevent a test from actually
          occurring, such as women who do not access prenatal care at all, or women who refuse the
          HIV test.

          Figure 1 provides one way to understand how this study fits into the larger scheme of
          preventing perinatal HIV transmission. The “cascade” outlines the events that lead to perinatal
          transmission. Each step is important to consider in overall efforts to maximally reduce perinatal
          transmission rates. This study focuses on women who are not offered HIV testing. Although
          this is only one event out of many that leads to a perinatal infection, it is an important step;
          research has shown that when testing and treatment are strongly recommended by providers,
          pregnant women are very unlikely to refuse.30 Therefore, whether a woman is offered HIV
          testing is crucial toward halting this cascade of events. It is important to recognize, however,
          that the offering of HIV testing is only one of the many aspects in the cascade of services
          necessary to prevent perinatal transmission. Ultimately, to prevent HIV in children, preventing
          new HIV infections in women is an essential first step.
                                                    Figure 1
                Cascade of Events Leading to the Number of Perinatally Infected Newborns

The proportion of women...
      * who are HIV-infected
            * who become pregnant
                  * who do not seek prenatal care,
                            or who are not offered HIV testing or who refuse HIV testing
                     * who are not offered treatment, or who refuse treatment
                            * who do not complete treatment
                                    * whose child is infected despite treatment
                        Source: Based on figure from the Institutes of Medicine report, “Reducing the Odds”


METHODOLOGY

National Estimate of HIV-infected Infants Where Obstetrician Did Not Know
Mother’s Status

          To address the request for a national estimate within the evaluation mandate, the Office of
          Inspector General requested that the Surveillance Branch of the Division of HIV/AIDS
          Prevention within the CDC, devise an appropriate estimate. In response to the OIG request,
          CDC has crafted an estimate that is very close to the legislative language. However, they
          cannot provide the exact figure requested. The mandate specifies an estimate of “. . . the
          number of newborn infants with HIV born in the United States with respect to whom the
          attending obstetrician for the birth did not know the HIV status of the mother.” The CDC
          provided an estimate of the total number of HIV-infected infants




Reducing Barriers to HIV Testing                                7                                         OEI-05-01-00260
          born in the United States for whom the mother’s HIV status was not diagnosed until after
          delivery.

          The CDC estimate diverges from the Congressional request since some of the elements of the
          request are not routinely collected through HIV surveillance or other evaluation efforts. First of
          all, information regarding whether or not an obstetrician was aware of their patient’s HIV status
          during delivery is not available. Furthermore, any attempt to investigate this information would
          be unreliable. An obstetrician who was not aware of a woman’s HIV status at delivery may
          never find out whether the woman or the newborn was later diagnosed with HIV. Secondly,
          although the mandate specifies obstetricians, routine HIV surveillance does not make
          distinctions among providers. Although national estimates exist indicating that 85 percent of all
          births are attended by obstetricians, these rates cannot be reliably applied to the tiny subset of
          births to women with unknown HIV status whose newborns are HIV infected. It is very likely
          that these deliveries share some qualities that would make them uncomparable to national
          figures.

          This estimate is modeled from data collected from multiple sources including some but not all
          States, during variable time periods, with different biases and limitations. This amalgam
          represents the best data available. Since the cessation of the Survey of Childbearing Women in
          1995,31 there is no longer a single source of nationally representative data from which estimates
          of the number of HIV-infected infants born each year can be derived. Currently, only 34
          States have instituted HIV reporting. Despite the many caveats, CDC feels that the figures
          represent a plausible range and are consistent with previously published CDC estimates. The
          full CDC methodology is included in Appendix D.

Obstetrician Barriers to HIV Testing of Pregnant Women and Newborns

          To identify barriers that prevent or discourage obstetricians from HIV testing of pregnant
          women and/or newborns and to recommend actions to reduce testing barriers, our data
          collection focused first and foremost on the individual obstetrician perspective. Next we
          reviewed these issues from a State perspective by surveying the chairperson that heads each
          ACOG State organizational unit (District or Section) and State health department HIV/AIDS
          directors. Lastly, we conducted in-depth case studies in six States in order to fully understand
          the complexity of the existing barriers and to identify promising practices. All survey
          instruments included sections on barriers to offering testing during prenatal care, labor and
          delivery, and to newborns, and sections on solutions or efforts to address these barriers.

          Beyond interviewing experts in six States, we solicited input from national experts with a wide
          range of perspectives, including representatives from AIDS Alliance for Children, Youth &
          Families, the Children’s AIDS Fund, the National Minority AIDS Council, and the New York
          Assembly. We also solicited feedback on draft survey instruments from individual obstetrician
          volunteers, ACOG staff, National Association of State and Territorial AIDS Directors
          (NASTAD) staff and State HIV/AIDS directors from several States.




Reducing Barriers to HIV Testing                      8                                   OEI-05-01-00260
National obstetrician mail survey

          For our national confidential survey of obstetricians, we obtained our sample from the
          membership list of the American College of Obstetricians and Gynecologists (ACOG) which
          represents 94.6 percent of all board certified obstetricians. Using surveillance data from the
          CDC, we stratified the list into low and high prevalence strata based on the county-level
          prevalence of women of child-bearing age living with AIDS. We defined the high prevalence
          stratum as counties with a rate greater than or equal to 4 cases of AIDS for every 1,000
          women of child-bearing age. The ACOG was extremely helpful in our survey effort by allowing
          us to use ACOG membership information for our sample, promoting our survey to ACOG
          members and sharing ACOG research on obstetricians.

          We randomly selected a sample of 1,200 ACOG members, 600 from each strata. Because the
          ACOG membership database does not distinguish those obstetrician-gynecologists who do not
          practice obstetrics, we oversampled to estimate for non-obstetrician respondents. We also
          over-sampled to account for an expected response rate of around 40 percent, based on
          previous surveys of obstetricians. We received 602 completed surveys, for a 50 percent
          response rate. We conducted a non-response analysis of 30 stratified randomly sampled non-
          respondents. Non-respondents did not vary from respondents in their test offering practices
          but did report some differences with specific barriers. See Appendix H for a more detailed
          explanation of the non-respondent analysis results.

          Of our respondents, 475 surveys were from obstetricians and were used in the data for this
          study. This final sample size provides a confidence level of 90 percent with 4 percent precision
          for estimates. See Appendix E for the confidence intervals of selected point estimates. Table 1
          illustrates the stratification of our sample and respondents.

                                                        Table 1
                                         National Random Sample of Obstetricians


                                                             High             Low
                                                          Prevalence       Prevalence   Totals
                                                            Strata           Strata

               Population of ACOG OBGYNs32                  15,953          16,208      32,161

               Sample of ACOG OBGYNs                           600            600       1,200

               Excluded (not practicing obstetrics)            69             58         127

               Total Obstetrician Respondents                  224            251        475


          We used several methods to analyze the survey data. We first calculated basic frequencies,
          weighted proportions and confidence intervals using the statistical package SUDAAN.
          Second, we ran chi-square tests to identify associations among key testing practice variables
          and barriers. Next, we used SUDAAN to conduct logistic regression analysis to identify
          predictors of key variables, including barriers to offering HIV testing



Reducing Barriers to HIV Testing                           9                              OEI-05-01-00260
          during prenatal care and labor and testing practices during labor. Predictor variables included
          specific practices and procedures, other barriers and demographic characteristics. Appendix F
          displays these models, including the odds ratios of significant predictors. We considered odds
          ratios to be significant if the p-value was less than 0.10.

State obstetrician representative fax survey

          In order to gain a State-level perspective of the barriers obstetricians face and provide context
          for the national survey responses, we sent a fax survey to an obstetrician representative in each
          of the 50 States, the District of Columbia and Puerto Rico. For the purposes of this report, we
          will be referring to these 52 entities as “the States.” In order to identify an obstetrician in each
          State, we worked with ACOG to approach the chairperson that heads each State Section or
          District. Chairpersons could complete the survey or refer it to another obstetrician in their
          State. For the purposes of this report, we will refer to obstetrician representatives as “ACOG
          representatives” although 10 surveys were from obstetricians referred by the ACOG
          Section/District chairperson for their State. We received responses from obstetricians
          representing 49 States (non-respondents were the District of Columbia, New Hampshire and
          Texas).

State HIV/AIDS directors fax survey

          In order to understand State health department perspectives and efforts addressing perinatal
          HIV transmission, we faxed a survey to State HIV/AIDS directors. For this survey, we used
          the membership list from the National Association of State and Territorial AIDS Directors
          (NASTAD) for the most current contact information. We received responses from all States
          except Puerto Rico.

In-depth case studies of six States

          We conducted case studies in order to provide a multi-layered picture of the barriers to testing
          and the context of those barriers, and to uncover potential causes and identify ways to reduce
          or remove barriers to testing. We selected a purposive sample of six States with a significant
          incidence of AIDS cases: New York, New Jersey, Florida, Texas, Georgia and California.
          These States represent 59 percent of total pediatric AIDS cases as of December 2000.33 In
          fact, these six States are high incidence States across a variety of CDC HIV/AIDS indicators.34

          In each of the selected States, we used non-probability sampling methods to select the most
          appropriate persons to interview. First, we purposively selected a core group of experts and
          stakeholders to represent a wide range of perspectives on the issue of obstetrician barriers to
          HIV testing. Key stakeholders included the State MCH director, State Medicaid
          representative, State and local health department HIV/AIDS program representatives and
          policy and front-line staff from at least one Title IV grantee. Interviews with these key
          stakeholders provide a level of consistency across case studies. Next, we employed a
          snowball technique to allow the stakeholders that we initially




Reducing Barriers to HIV Testing                      10                                   OEI-05-01-00260
          identified to nominate additional experts to be included in our sample. This allowed us to
          develop a comprehensive list of State experts on the topic of obstetrician barriers to HIV
          testing.

          In each State, we interviewed 15 to 25 experts or stakeholders. Experts included staff from
          Ryan White Title IV agencies, State and local health departments, social service agencies, and
          State Medicaid agencies. We also interviewed individual medical providers, case workers and,
          when possible, HIV-infected women who had either given birth or acted as peer counselors to
          other women. We have protected the anonymity of the HIV-infected women respondents by
          removing all personal identifiers from our records.




Reducing Barriers to HIV Testing                     11                                 OEI-05-01-00260
                                         FINDINGS

In 2000, an estimated 80 to 110 HIV-infected infants were born
to mothers who had not been diagnosed prior to birth

          The CDC estimates that there were approximately 6,000 - 7,000 births to women living with
          HIV or AIDS in 2000. This is 0.15 percent of the almost 4 million live births in the United
          States for the same year. Based on a national extrapolation of available State-specific data, the
          births to women living with HIV/AIDS produced an estimated 280-370 HIV-infected infants.
          Thus, 4 to 6 percent of children born to HIV-infected women developed HIV themselves. This
          represents the overall transmission rate of perinatal HIV infections in 2000.

          Focusing on the subset of infants infected through perinatal transmission is an important step in
          understanding the scope of this issue and in fulfilling the Congressional mandate to determine
          “the number of newborn infants with HIV born in the United States with respect to whom the
          attending obstetrician for the birth did not know the HIV status of the mother.” The next step is
          to ascertain the extent to which these infections resulted from transmission despite treatment
          versus a lack of treatment due to inadequate or no prenatal care, absence or refusal of HIV
          testing, or the refusal of treatment. The Congressional mandate specifically focuses on the
          potential that lack of treatment could be due to the absence of testing. Consequently, that is the
          focus of the rest of this finding and the report.

          Of the 280-370 HIV-positive infants infected through perinatal transmission in 2000, the CDC
          estimates that approximately 62 percent were born to mothers who were diagnosed with HIV
          prior to the birth. For another approximately 9 percent of HIV-infected infants, the mother’s
          HIV diagnosis came during delivery. The mother was not diagnosed with HIV until after the
          birth of the child in approximately 29 percent of the cases, resulting in 80 to 110 HIV-infected
          infants born to mothers who had not yet been diagnosed with HIV. Appendix D contains a
          detailed description of the methodology used for deriving these estimates, which are based on
          transmission rates associated with initiating treatment at the time of diagnosis. Although timely
          treatment significantly reduces transmission rates, it does not eliminate the possibility of
          transmission. Table 2 provides the numbers and percentages of infected infants broken out by
          the mother’s time of diagnosis.




Reducing Barriers to HIV Testing                     12                                  OEI-05-01-00260
                                                      Table 2

                                          Time of Mother’s HIV Diagnosis 

                            for the Estimated 280-370 HIV-Infected Infants Born in 2000


                                                              Estimated, Rounded           Estimated Percent
                                                                 Range of HIV-              of HIV-infected
                                                              infected Newborns                Newborns

                   Infants Whose Mother was                         170-230                      62%
                   Diagnosed Prior to Birth

                   Infants Whose Mother was                          20-40                       9%
                   Diagnosed During Delivery

                   Infants Whose Mother was                          80-110                      29%
                   Diagnosed After Birth

                   Rounded Totals35                                 280-370                     100%
                                      Source: Centers for Disease Control and Prevention


          Assuming the time of the mother’s diagnosis, as reported to the CDC from medical records,36 is
          synonymous with obstetrician knowledge of HIV, and assuming all HIV-infected births were
          attended by obstetricians, then these newborn estimates represent the “number of newborn
          infants with HIV with respect to whom the attending obstetrician for the birth did not know the
          HIV status of the mother” that was specifically requested by Congress. Using these
          assumptions, 80 to 110 HIV-infected infants were delivered by an attending obstetrician with
          no knowledge of the mother’s status.

          As with any set of assumptions used to provide estimates, there are limitations. Most
          importantly, while it is likely and logical that the mother’s diagnosis time is synonymous with
          obstetrician knowledge of HIV and the initiation of treatment, it is not certain. In some
          instances, the attending physician may not be the woman’s prenatal caregiver or the woman
          may not have received prenatal care at all. Perinatal surveillance data from CDC indicates that
          14 percent of HIV-infected women did not receive prenatal care.37 In these cases, even if the
          woman was diagnosed prior to the birth, the attending obstetrician may be unaware of her
          testing history and her status. Further, it is unlikely that all of these births were attended by
          obstetricians. Although obstetricians preside over an estimated 85 percent of births nationally,
          it is uncertain whether this ratio applies to women with unknown HIV status who deliver HIV
          infected infants. It is likely that these deliveries share some qualities that would make them
          more likely to be attended by an obstetrician (i.e. hospitals might be more likely to assign
          obstetricians to women with potentially complicated deliveries such as women with substance
          abuse issues or no prenatal care).

          Using the different rates for perinatal transmission based on treatment initiation, we can estimate
          the extent to which earlier diagnosis could prevent the infection of infants. If all of the HIV-
          infected infants whose mothers were diagnosed after the birth had been diagnosed and treated
          during labor or delivery, we estimate the total number of HIV-infected infants could be reduced
          by roughly 15 percent. This translates into preventing HIV infection in 50 to 65 infants in the
          year 2000. Assuming a more ideal scenario,

Reducing Barriers to HIV Testing                             13                                          OEI-05-01-00260
          where all the HIV-infected infants whose mothers were diagnosed after the birth or at delivery
          had been diagnosed prior to the birth of the child, and adhered to treatment that was initiated in
          prenatal care, we estimate that the total number of HIV-infected infants in 2000 could have
          been reduced by 90 to110 infants. This represents a decrease in the number of HIV-infected
          infants by approximately 30 percent.

          These scenarios clearly demonstrate the crucial impact early diagnosis and treatment can have.
          Despite the fact that over half of the HIV-infected newborns were born to mothers who were
          diagnosed prior to birth, the question of why some women remained undiagnosed until after the
          birth of their child remains. As previously stated, we examine only one possible answer to this
          critical question, that the women were not diagnosed because they were never offered an HIV
          test by their obstetrician or other health care provider. In particular, this report strives to
          determine what barriers might prevent or discourage obstetricians from routinely offering HIV
          testing to all pregnant women as well as suggesting solutions for removing those barriers.

Obstetricians routinely offer HIV testing as part of their
standard prenatal practice; however, barriers affect
approximately one-third of obstetricians.

Almost all obstetricans offer HIV testing during prenatal care, but other related
procedures vary with AIDS prevalence

          Obstetricians provided information on both their practices of offering testing to pregnant
          patients and on any barriers that have ever prevented them from offering an HIV test to a
          prenatal patient. Ninety-three percent of obstetricians reported that they routinely offer HIV
          testing to their pregnant patients.38 However, some of the same obstetricians who reported
          routinely offering testing also acknowledged specific barriers that have prevented that practice
          on at least one occasion. A total of 66 percent of obstetricians reported both offering testing to
          all pregnant patients and having never been prevented from that practice by any barriers.

          Obstetricians in both high and low prevalence counties showed similar standard practices of
          offering testing. This was also true across a number of other demographic variables, including
          urban versus rural practice setting, private versus public practice setting, private versus public
          insurance, gender and years since residency. However, obstetricians in high prevalence
          counties differ from those in low prevalence counties in other aspects of the testing process.
          Most importantly, logistic regression analysis indicated that obstetricians in high prevalence
          counties were less likely to be obstructed by any barriers to testing during prenatal care. There
          are also significant associations between prevalence rates and some testing practices.
          Obstetricians in high prevalence counties tended to “recommend” testing to pregnant women at
          low risk for HIV rather than just “offer” testing. Practicing in the high prevalence strata also
          related positively to documenting a woman’s refusal of testing and re-offering testing at a
          subsequent prenatal appointment. Obstetricians in the high prevalence strata also recalled
          receiving educational materials or training from CDC




Reducing Barriers to HIV Testing                      14                                  OEI-05-01-00260
          and from their State or local health departments significantly more often. Finally, more
          physicians in this strata than in the low prevalence strata reported knowledge of their State laws
          on HIV testing of pregnant women.

Barriers to offering HIV testing during prenatal care have affected one-third of
obstetricians

          Thirty-two percent of all obstetricians, regardless of their testing practice, have ever faced a
          barrier that has prevented them from offering an HIV test to a prenatal patient. The three most
          commonly reported barriers to offering HIV testing during prenatal care included language, a
          patient’s late entry into prenatal care and an obstetrician’s considering his or her patient
          population to be at low risk for HIV. These barriers each affected 13 to 15 percent of
          obstetricians. Pretest counseling being too time-consuming and the consent process being too
          time-consuming were the fourth and fifth most common barriers, respectively, but each were
          reported by only 5 percent of obstetricians. Table 3 lists the percentage of obstetricians who
          identified each barrier as having ever prevented them from offering an HIV test to a prenatal
          patient. Appendix A displays prenatal care barriers by State, as identified by the State
          HIV/AIDS directors and ACOG representatives.


                                                        Table 3

                                       Barriers That Have Ever Been a Reason for 

                                      Not Offering an HIV Test to a Prenatal Patient


                         Barriers to Offering HIV Testing                          Percentage of
                                                                                   Obstetricians

                         Language barrier                                                   15 %

                         Late entry into prenatal care                                      13 %

                         Patient population is at low risk                                  13 %

                         Pretest counseling too time consuming                              5%

                         Consent process too time consuming                                 5%

                         Concern about offending patient                                    5%

                         Inadequate reimbursement                                           2%

                         It is not the standard of care in my hospital/clinic               1%

                         Concern about informing a pregnant woman she                       1%
                         is HIV-positive

                         Concern about treating an HIV-positive patient                     1%
                                             Source: OIG national survey of obstetricians




Reducing Barriers to HIV Testing                                   15                              OEI-05-01-00260
          Guidance on testing may help to alleviate barriers to offering testing. Logistic regression
          analysis showed that barriers were less likely to obstruct obstetricians whose workplace had
          written policies on HIV testing of pregnant women. Obstetricans who report receiving
          educational materials or training on perinatal HIV from CDC were also less likely to encounter
          any barriers to testing than obstetricians who do not report receiving such resources.
          Additionally, obstetricians who did not know their State’s laws regarding HIV testing were
          more likely to report barriers than those familiar with State laws.

Language barriers constitute an exception to obstetricians’ routine test offering

          A language barrier, the most frequently reported barrier, has prevented 15 percent of
          obstetricians from offering HIV testing during prenatal care on at least one occasion. Language
          barriers affected the greatest number of obstetricians; however, finding language to be a barrier
          did not seem to dictate obstetricians' routine testing practice. Analysis using logistic regression
          supports this characterization. Among obstetricans facing any barriers, those obstetricians who
          routinely offer HIV testing to all pregnant patients were more likely to report a language barrier
          than those who only offer testing to some patients. Thus, it appears that a language barrier
          represents an exception to their routine practice. For these obstetricians, language constitutes a
          practical but formidable problem that arises occasionally. In qualitative interviews, some
          obstetricians and other health professionals have noted that a lack of multilingual patient
          education materials and consent forms and shortages of bilingual staff have exacerbated this
          barrier.

          Although language constitutes the most commonly identified national barrier, it may not impact
          localities uniformly. Within States, obstetricians in suburban areas were less likely to report this
          barrier, although language barriers did occur in similar frequencies in urban and rural locations.
          Further, only 15 State HIV/AIDS directors identified this as a barrier in their State. However,
          States should not discount the potential for this barrier to impact their populations in the future,
          nor the possibility that it may already be occurring sporadically in their State. Data from an
          Urban Institute study indicates that certain States with historically small immigrant populations
          have recently experienced a rapid growth in immigration.39

A patient’s late entry into prenatal care or lack of any prenatal care can prevent
testing

          Like a language barrier, a patient’s late entry into prenatal care most often obstructs
          obstetricians who otherwise routinely offer testing. Logistic analysis again supported this
          characterization. Considering obstetricians with any barriers, the obstetricians who routinely
          offer testing to all prenatal patients were more likely to report the late entry into prenatal care as
          a barrier. For these obstetricians, a patient’s late entry into care appears to disrupt their
          standard testing practice. Anecdotal evidence suggests that many women with late entry into
          prenatal care have multiple, immediate medical needs. These needs can interact with time
          constraints to make HIV testing more difficult. Some obstetricians may focus on competing
          clinical priorities at the expense of offering HIV testing. Forty-




Reducing Barriers to HIV Testing                       16                                    OEI-05-01-00260
          three percent of State HIV/AIDS directors also agreed that presenting late in pregnancy for
          prenatal care is an ongoing barrier in their State.

          However, several interviews with obstetricians and experts in high prevalence States offered a
          different perspective on a woman’s late entry into prenatal care, arguing that late entry would
          increase the likelihood of test offering. They asserted that if a woman presents for prenatal care
          late in pregnancy, this signals a “high risk” pregnancy, which increases the priority the
          obstetrician places on HIV testing for her. One obstetrician summarized this perspective with
          the remark, “[Lack of prenatal care] is a red flag for most of us,” increasing the likelihood of
          testing as opposed to acting as a barrier to it.

          In addition to the potential difficulties that late entry into care may present, women who receive
          no prenatal care present an even greater barrier to timely HIV testing. Only a few State
          ACOG representatives agreed that late entry into prenatal care constituted a testing barrier.
          However, one quarter of ACOG respondents reported that “no prenatal care” prevents
          obstetricians from offering HIV testing. Forty-five percent of State HIV/AIDS directors also
          identified “no prenatal care” as a barrier. Our national survey of obstetricians did not include
          “no prenatal care” as a barrier since it is beyond the scope of obstetricians’ prenatal practices.

For some obstetricians, the risk assessment barrier impedes routine offering of
HIV testing

          Although most of the medical community, including CDC, ACOG and IOM, has actively
          supported universal offering of HIV testing to all pregnant women, perceptions of patient risk
          still act as a barrier to testing for a subset of obstetricians. Nationally, 13 percent of
          obstetricians reported that they have not offered HIV testing because they considered their
          patient population at low risk. Similarly, 13 percent of State ACOG representatives felt that
          this was a barrier that prevented testing. A slightly higher percentage felt that risk assessments
          discouraged, but did not prevent testing. HIV/AIDS directors felt that the use of risk
          assessments among obstetricians posed a more serious barrier to HIV testing. Fifty-five
          percent of HIV/AIDS directors identified “the belief that only high risk patients should be tested
          for HIV” as a barrier, making it the barrier most often reported among HIV/AIDS directors.

          An important difference emerged between the barrier of using risk assessments and the other
          top barriers. Although language and late entry barriers seem to operate as exceptions to the
          physician’s routine practice, an obstetrician’s risk assessments seem to partly determine routine
          testing practices. Unlike language and late entry barriers, there is demonstrated a negative
          relationship between risk assessment barriers and routine test offering practices. Considering
          obstetricians who reported any barriers, those who routinely offer HIV testing to all prenatal
          patients were less likely to identify the risk perception barriers than those who offer testing only
          to some prenatal patients.

          Discussions with obstetricians and other experts have produced some ideas of why
          obstetricians may use risk-assessments despite the widespread promotion of universal




Reducing Barriers to HIV Testing                       17                                   OEI-05-01-00260
          offering as the standard of care. Some respondents highlighted the fact that some obstetricians
          have never encountered an HIV-infected patient, and particularly in low prevalence areas,
          firmly believe that their patient population faces no risk of HIV. As one expert expressed,
          information on standards of care only takes you so far; a small proportion of physicians will
          disagree with those standards and only change their behavior if they face repercussions for not
          offering testing. Others addressed the “mixed messages” of HIV prevention. Epidemiologic
          research has tended to focus on identifying risk factors and subpopulations most affected by
          HIV. This emphasis on subpopulations may undermine the promotion of universal screening
          and may reinforce obstetrician perceptions that they do not need to test their patient
          populations. A final reason why obstetricians may still use risk assessments is due to State laws
          governing HIV counseling and testing procedures. For example, risk assessment language is
          included in perinatal testing laws in two States.

          Though experts have characterized using risk assessments as one of the most difficult barriers to
          overcome, evidence suggests that institutional guidance can help to prevent obstetricians’
          reliance on them. Practicing in a workplace that has developed written policies regarding HIV
          testing of pregnant women predicted that an obstetrician would not indicate that using risk
          assessments obstructs testing. Also, almost three-fourths of obstetricians indicated that “making
          voluntary HIV testing of all pregnant women the standard of care in my hospital or clinic” would
          be helpful in assisting them to routinely offer HIV testing.

          Our data indicates that the risk assessment barrier may underlie other barriers to offering
          testing, such as an obstetrician’s concern about offending the patient. Most obstetricians who
          indicated that their concern about offending the patient prevented them from offering a test,
          have also been prevented by the perception that their patients are at low risk. Discussions with
          providers and experts support the theory that these two barriers can interact with one another.
          An obstetrician may presume both that the patient is at low risk for HIV and that she would be
          offended by an offer of testing. This physician may justify not offering the test to avoid the risk
          of offense since the physician does not feel the woman really needs the test anyway.

Pretest counseling and consent barriers discourage, but seldom prevent, offering
testing

          Despite the prominence of counseling and consent issues in previous research regarding
          prenatal testing barriers, including the IOM report which cited “lack of provider time and the
          legal requirements for counseling and informed consent” as barriers, a surprisingly small
          proportion of obstetricians indicated that these barriers have ever prevented them from offering
          an HIV test. Pretest counseling being too time-consuming and the consent process being too
          time-consuming each have obstructed testing for only 5 percent of obstetricians. These barriers
          ranked as the fourth and fifth most common of 10 barriers by both obstetricians and State
          HIV/AIDS directors.




Reducing Barriers to HIV Testing                      18                                  OEI-05-01-00260
          Obstetricians and other health experts offered possible explanations for the perception of
          counseling and consent requirements as too time-consuming. The health care system often
          focuses incentives on treating many patients as quickly as possible, so even a brief discussion of
          HIV testing may impose a burden. However, experts have also asserted that these burdens
          may represent misperceptions of State requirements. Respondents suggested that some
          obstetricians believe that the pretest counseling and consent process requires up to 20 minutes
          to complete, but in reality it can take less than 5 minutes. According to our survey of State
          HIV/AIDS directors, only eight States require that pretest counseling be provided to all
          pregnant women and of those States, only five have specified the information that must be
          included in the counseling session. Twenty-one States indicated that they require written
          consent for HIV testing.

          Pretest counseling and consent requirements may impose a burden that is bothersome but not
          prohibitive. Our survey of State ACOG representatives differed from the other two surveys by
          allowing the additional response that a barrier “discourages, but doesn’t prevent testing.”
          Sixty-nine percent of ACOG representatives assessed the pretest counseling barrier as one that
          discourages but does not prevent testing, and 63 percent indicated the same for the consent
          barrier. These barriers ranked as the first and second most common to discourage (but not
          prevent) testing. These State ACOG results also support the perspectives of some other
          respondents interviewed during field work. Many argued that the perception of counseling and
          consent as burdensome is more likely to compromise the quality of the counseling and informed
          consent than to prevent the offer of the test.

Significant barriers prevent almost half of obstetricians from
routinely offering HIV testing during labor and delivery

Overall, offering HIV testing to all women in labor with unknown status is not
standard practice

          Standard practices vary widely between the prenatal care setting and the labor and delivery
          setting. Though almost all obstetricians reported routinely offering HIV testing to prenatal
          patients, only 48 percent of obstetricians routinely offer HIV testing (rapid, expedited or
          standard testing) to women of unknown HIV status during labor.40 Some obstetricians who did
          report routinely offering testing to all women in labor with unknown status also indicated that a
          barrier had prevented that practice on at least one occasion. In total, 41 percent of
          obstetricians reported both routinely offering HIV testing during labor and having never been
          prevented from that practice by any barriers. A noteworthy minority of 17 percent never offer
          testing during labor and delivery. In contrast, only 1 percent of obstetricians reported never
          offering HIV testing to prenatal patients.

          The AIDS prevalence rates impacted standard testing practices in the labor and delivery
          setting. According to logistic regression, obstetricians practicing in a high prevalence county
          were more likely to routinely offer testing during delivery. Obstetricians




Reducing Barriers to HIV Testing                      19                                  OEI-05-01-00260
          practicing in a low prevalence county more commonly reported offering testing to women in
          labor with unknown status only sometimes. Obstetricians in low prevalence counties were also
          more likely to indicate that they faced barriers to testing during labor.

          Guidance on HIV testing, particularly from an obstetrician’s hospital, also impacted testing
          practices during labor. Logistic regression analysis identified that the receipt of educational
          information or training on perinatal HIV from one’s hospital or from an educational course
          predicted that an obstetrician routinely offered testing during labor. Educational information
          from the hospital also decreased an obstetrician’s likelihood of reporting any labor and delivery
          barriers. Interestingly, educational information from other sources did not demonstrate this
          effect.

The labor and delivery setting entails significant challenges to offering HIV testing

          Compared to the prenatal care setting, testing barriers impacted many more obstetricians during
          labor and delivery. Approximately one-third of obstetricians reported any barriers to testing in
          the prenatal setting, but almost one-half faced challenges to offering HIV testing to women in
          labor with an unknown HIV status. Forty-four percent of obstetricians named at least one
          barrier that has ever prevented them from offering an HIV test to a woman in the labor and
          delivery setting. The most commonly reported barriers related to the process of conducting
          counseling and obtaining consent during labor, followed by limitations in the capacity to
          produce test results quickly. Some obstetricians also categorized the labor setting as being too
          late for preventive treatment. The following table lists the percentages of obstetricians
          identifying each barrier as having prevented them from offering testing during labor. Appendix
          A displays testing barriers during labor and delivery by State, as identified by the State
          HIV/AIDS directors and ACOG representatives.




Reducing Barriers to HIV Testing                     20                                  OEI-05-01-00260
                                                 Table 4
              Barriers That Have Ever Been a Reason for Not Offering an HIV Test to a Patient
                                        During Labor and Delivery

                      Barriers to Offering HIV Testing                                      Percentage of
                                                                                            Obstetricians

                      Process Barriers

                                   Insufficient time to counsel during labor                      32 %

                                   Too difficult to obtain consent during labor                   28 %

                      Technology Barriers

                                   Test results take too long                                     19 %

                                   Rapid or expedited HIV tests not available                     18 %

                      Too late for preventive treatment                                           17 %

                      Too much emotional stress for patient                                       9%

                      Hospital did not have antiretroviral drugs available for                    1%
                      treatment
                                             Source: OIG national survey of obstetricians


The HIV counseling and consent process during labor represented the most
common source of barriers

          The two most common barriers involved the process of offering HIV testing in the labor and
          delivery setting. Thirty-six percent of obstetricians reported that either “insufficient time to
          counsel” or “too difficult to obtain consent” or both of these barriers has ever prevented testing
          during labor. These two barriers were strongly associated, meaning that obstetricians who
          reported one barrier were likely to report the other.

          Reporting insufficient time to counsel as a barrier is associated with whether or not an
          obstetrician has a set testing practice. Obstetricians who indicated that they “always” or
          “never” test during labor seem to be signaling a routine practice, whereas those that indicate
          “sometimes” appear to be testing on a more case-by-case basis. Considering obstetricians with
          any barriers during labor and delivery, obstetricians who appear to be deciding on a case-by-
          case basis whether to offer testing reported having insufficient time to counsel significantly more
          often than those who always offer or never offer testing. During interviews, some providers
          noted that obstetricians often operate under strict time constraints in the labor and delivery
          setting. For example, some women present in very advanced stages of labor with multiple
          immediate needs, which compete with the offering of HIV testing. On the other hand,
          obstetricians who indicated that they always test must also face similar time constraints, but
          have apparently managed to surmount them.

          In addition to reducing the likelihood of facing barriers in general, institutional policies may also
          help to remedy this counseling barrier in particular. Obstetricians whose


Reducing Barriers to HIV Testing                                  21                                        OEI-05-01-00260
          workplaces had developed a written policy regarding HIV testing of pregnant women were less
          likely to report this barrier.

          The difficulty of obtaining consent during labor and delivery is a barrier that impacts 28 percent
          of obstetricians. During discussions of the consent barrier, some health professionals described
          this difficulty as stemming from a doubt about a woman’s capacity to consent to testing while
          under the influence of pain, emotional stress or medication during labor. Others did not
          encounter this doubt and compared the testing consent to women’s consent to other medical
          procedures, such as a Cesarean section, under the same circumstances. Some respondents
          also voiced confidentiality concerns in situations where partners or family members accompany
          the woman into the delivery room.

Limitations in HIV testing technology present an insurmountable barrier for one-
fifth of obstetricians

          A limited capacity to process HIV tests quickly can prevent obstetricians from offering testing
          during labor. Slightly more than a fifth of obstetricians named either of two barriers related to
          testing technology as obstructions. Further, the obstetricians who do not routinely offer testing
          during labor and delivery were more likely to report either of these testing technology barriers.
          These barriers included “test results take too long” and “rapid or expedited HIV tests not
          available.” State HIV/AIDS directors and ACOG representatives identified the unavailability
          of rapid or expedited tests more frequently than any other barrier during labor and delivery.

          That 80 percent of obstetricians did not name these testing barriers was somewhat surprising in
          the context of discussions with other providers and experts. With the notable exception of
          New York, which mandates that HIV test results of mothers in labor and/or newborns be
          available within 48 hours, limitations in processing tests quickly featured prominently in many
          interviews discussing testing barriers during labor and delivery. During these discussions, many
          experts characterized the lack of expedited and rapid testing capacity as a formidable and
          widespread barrier. Over 40 percent of State HIV/AIDS directors also identified lack of rapid
          or expedited testing as an ongoing barrier in their States. This apparent divergence, between
          the obstetricians’ responses and the State surveys and interviews implying a greater prevalence
          of this barrier, raises an issue that warrants further attention. An assessment of the extent to
          which hospitals in each State have developed the capacity to produce expedited or rapid HIV
          test results is an important foundation for increasing obstetricians’ ability to intervene during
          labor and delivery.

Some obstetricians consider labor too late for preventive treatment, but
interpretations of this barrier vary

          Antiretroviral treatment initiated during delivery or within 12 hours of birth can reduce HIV
          transmission rates. However, 17 percent of obstetricians indicated that they have not offered
          an HIV test during labor because it was too late for preventive treatment. Two




Reducing Barriers to HIV Testing                     22                                   OEI-05-01-00260
          explanations may explain the prevalence of this barrier. First, lack of rapid or expedited testing
          could prevent the obstetrician from ascertaining HIV status until after the window of
          intervention had passed.41 Slightly more than half of the obstetricians who indicated that it was
          too late for preventive treatment also named at least one of the two testing technology barriers.
          Second, doctors may be unaware of prevention treatment options during labor and delivery.
          Approximately 7 percent of obstetricians reported "too late for preventive treatment" but did
          not report any barriers based on test results being delayed or on lack of antiretrovirals drugs for
          treatment. For these physicians, a lack of continuing education or educational materials on
          treatment options may account for this barrier. Finally, only one percent of obstetricians
          reported not testing due to a lack of antiretroviral drugs in their hospital, and so presumably, this
          condition was not a factor in perpetuating the "too late for preventive treatment" barrier.

Obstetricians do not routinely test newborns for HIV, primarily
because it is not their responsibility

          Ninety-three percent of obstetricians reported that testing is the responsibility of the newborn’s
          physician. In fact, 90 percent indicated that they never perform HIV testing on newborns when
          the mother’s status is unknown. Obstetricians reinforced this idea in the barriers they reported.
          Among obstetricians reporting any barriers to newborn testing, 90 percent said that they have
          not tested newborns either because they were not responsible for newborn testing or because
          they had recommended newborn testing to the newborn’s physician.

          Moreover, States have generally not assigned obstetricians the responsibility to test newborns
          when the mother’s status is unknown. Only two States, New York and Connecticut, have
          enacted laws that mandate HIV testing of newborns born to mothers of unknown status.
          Neither State specifies that obstetricians must carry out this testing; instead, the laws hold the
          hospital accountable for developing protocols to ensure the testing of these infants.

          While most professionals and State laws do not hold obstetricians responsible for newborn
          testing, a lack of communication between obstetricians and pediatricians, who are typically
          responsible for newborn testing, may act as a barrier to testing. Approximately one-fifth of
          obstetricians noted that a lack of communication with the newborn’s physician has been
          problematic. Pediatricians whom we interviewed also noted the “fragility of the paper trail” that
          documents the mother’s testing history. State confidentiality laws regarding the disclosure of
          HIV information may explain some of this difficulty. One pediatrician explained that when the
          mother’s HIV status is not documented in the newborn’s chart, some pediatricians assume that
          the mother tested negative. If the obstetrician had failed to offer an HIV test or had failed to
          document the mother’s refusal of the test, the newborn’s pediatrician would likely be unaware
          that the mother’s status remained unknown.




Reducing Barriers to HIV Testing                       23                                   OEI-05-01-00260
          Though obstetricians do not conduct newborn HIV testing for the most part, one-fourth of
          obstetricians do take some action related to newborn testing when the mother’s status is
          unknown. Twenty-four percent of obstetricians reported that they always recommend to the
          mother that the newborn be tested for HIV. Also, twenty-two percent of obstetricians routinely
          recommend newborn testing to the newborn’s pediatrician.

Almost all States report actions addressing obstetrician
barriers to offering HIV testing to all pregnant women

          Fifty of the 51 State respondents indicated that they had undertaken some measures to address
          barriers to counseling and testing all pregnant women, although the intensity and breadth vary
          tremendously. Fifteen States efforts include laws that mandate HIV testing or the offering of
          testing to all pregnant women. Appendix B provides additional information on State laws
          relating to perinatal HIV testing. Interviews with several HIV/AIDS experts suggest that there
          was a tremendous effort put forth right after the release of the 1995 PHS guidelines to
          disseminate information and train health care providers, but that efforts have diminished in
          recent years. However, most States are still engaged in some effort related to the topic. The
          majority of these States have multiple efforts underway focused on reducing the remaining
          barriers to offering HIV testing during pregnancy. Appendix C provides additional information
          on each State’s efforts to reduce perinatal HIV testing barriers.

States’ efforts are primarily focused on provider education and training, but these
activities may not represent the most effective solutions to eliminate continuing
barriers from an obstetrician perspective

          Forty-five States reported at least one effort, and many States had multiple efforts, to educate
          providers regarding the necessity of providing HIV counseling and testing to all their pregnant
          patients. Education efforts took a variety of forms, but primarily consisted of the development
          and distribution of written materials and group training regarding prevention and treatment
          issues. Seventy-eight percent of States indicated that they disseminated State laws or policies
          regarding HIV testing of pregnant women through direct mailings to obstetricians. Training on
          testing and treatment has been offered by 19 States.

          When asked for ideal solutions to improve obstetrician practices, States continue to focus on
          provider education. Of the 34 States offering opinions on the ideal solution to improve
          obstetrician practices, almost half wrote in provider education. In comparison, only 21 percent
          thought more research was the answer, while 18 percent focused on collaborative efforts.

          In contrast, obstetricians do not seem to favor additional educational or training efforts as the
          most helpful solutions to promote their routine offering of testing. On a list of 10 possible
          solutions, obstetricians ranked continuing education courses on perinatal HIV as the 8th and
          training on HIV counseling as the 10th most helpful to them. The three




Reducing Barriers to HIV Testing                      24                                   OEI-05-01-00260
          solutions that obstetricians indicated would be most helpful are: including testing in the standard
          battery of prenatal tests, making voluntary testing of all pregnant women the standard of care in
          their hospital/clinic and receiving patient education materials.

          Furthermore, it appears that most obstetricians pay more attention to educational efforts by
          professional organizations and CDC than by the public health department. When asked about
          the educational materials on perinatal HIV that they received, 94 percent of all obstetricians
          remember receiving materials from ACOG, and 71 percent remember receiving materials from
          CDC. However, only 53 percent remember receiving materials from their State and local
          health departments. This is despite the fact that 90 percent of these obstetricians practice in
          States where the State health department indicated that they sent materials. During interviews,
          several obstetricians remarked that they pay less attention to public health letters than they do
          to technical bulletins. The reluctance to read information from State and local health
          departments could explain why one-third of obstetricians indicated that they were not familiar
          with State’s laws or policies.

Collaboration efforts lack formal involvement by private providers

          Forty-six State health departments indicated that they collaborated with private sector
          stakeholders to develop strategies to overcome the barriers to HIV counseling and testing.
          However, only 19 of these States indicated that their collaborative efforts formally included
          private providers or provider associations. Challenges to collaboration can lie in successfully
          engaging the private sector as partners. The ACOG representatives from 17 States felt their
          State health department has not tried to engage the private sector in addressing the issue of
          perinatal HIV transmission. Further, only 6 percent of State health departments indicated that
          collaboration with private partners would be an ideal way to improve obstetrician practices
          around perinatal HIV testing.

          In interviews, HIV/AIDS experts expounded upon these issues. Respondents indicated that
          while specific task forces or working groups may be convened, truly integrating private
          providers into a State’s response to this issue also presents a challenge. Sometimes the quality
          of the collaboration is questionable. For example, one State’s task force includes several
          private obstetricians, however most are not actively involved in the group and rarely attend
          meetings.

In most States, efforts do not include monitoring compliance

          While a few States are engaged in monitoring or enforcement activities, the majority of States
          do not have the means to ascertain whether obstetricians and other health care providers are
          complying with their laws or policies regarding HIV testing during pregnancy. In total, 12
          States indicated that they have either monitoring and/or enforcement provisions in the law. Six
          additional State health departments indicated that they are engaged in activities to monitor
          obstetrician and/or hospital compliance.

          Twenty-four States engage in research that provides valuable information; however, this does
          not perform a monitoring function. Several States have participated in issue-specific

Reducing Barriers to HIV Testing                      25                                   OEI-05-01-00260
          research regarding obstetrician practices, which offers a picture of compliance at a specific
          point in time. On the other hand, epidemiological research and surveillance provides an on-
          going method for assessing overall provider compliance. However, with the exception of some
          enhanced perinatal surveillance projects in conjunction with the CDC, this research lacks the
          means to pinpoint categories of providers who do not offer HIV testing to all women.

States face challenges to changing obstetricians’ testing practices

          The number one challenge faced by 36 States is influencing the behavior of private
          obstetricians. Attempting to influence the attitudes and behavior of obstetricians is inherently
          difficult, as are all attempts to alter behavior patterns. This is made especially difficult by the
          gulf that often exists between the public health perspective and the private obstetrician provider
          perspective. For example, providing prevention messages and risk reduction education to
          pregnant women has public health value, but may compete for time with other clinic aspects of
          treating the individual. Further, many obstetricians do not support what one obstetrician called
          “HIV exceptionalism” in which HIV is treated differently from other public health issues due to
          social and political issues associated with the disease. Agreeing with this point of view, one
          obstetrician wrote, “HIV should be treated like a medical illness, not a social disease. We
          don’t have to counsel to the same degree for gonorrhea and chlamydia testing.”

          Another challenge identified by the States also may make successfully persuading all
          obstetricians to universally test for HIV difficult. In 49 percent of the States, State health
          departments felt that competing priorities take precedence over the issue of perinatal
          transmission. This viewpoint is supported by ACOG State representatives, 43 percent of
          whom reported that perinatal transmission is “not an issue” or “other issues take precedence”
          on the State ACOG agenda. In many low prevalence States, the low ranking of this issue is not
          surprising and probably appropriate given the larger prevention issues facing the State.
          However, it certainly speaks to a general attitude in the State that may be shared by the
          obstetricians in that State. As one HIV/AIDS clinical director stated, “With the dramatic
          reduction in cases, people have become complacent and within the scheme of challenges, this
          issue now seems so small that it is hard to get people to focus.”




Reducing Barriers to HIV Testing                      26                                   OEI-05-01-00260
                                   RECOMMENDATIONS

          Since the PHS guidelines recommending HIV counseling and testing for all pregnant women
          were instituted in 1995, testing rates have increased substantially.42 In our survey, 93 percent
          of obstetricians reported routinely offering testing to all of their patients for HIV. The increase
          in testing rates, along with significant reductions in perinatal HIV incidence, testify to Federal,
          State and local efforts to implement universal HIV screening of pregnant women. However,
          there is more that could be done to reach the goal of ensuring that every pregnant women is
          offered an HIV test. One-third of obstetricians still face barriers to offering HIV testing in the
          prenatal setting, and almost one-half faced challenges to offering HIV testing to women with
          unknown HIV status during labor and delivery.

          In general, reducing barriers to testing requires CDC and States to develop, disseminate and
          institutionalize at the local level the practical tools necessary to make HIV testing
          administratively routine. To be successful, these efforts must entail the involvement of the
          private sector as advisors in the developmental stage and as partners in the implementation
          stage. Achieving the highest possible testing rates also requires instituting a level of
          accountability that will modify the behavior of obstetricians for whom targeted training and new
          tools are not sufficiently motivating.

          In offering specific recommendations to increase HIV testing, we have focused on increasing
          obstetrician testing of women rather than newborns. First and foremost, obstetricians do not
          define newborn testing as being within the scope of their duties. Further, early testing of the
          mother is the most effective way to reduce transmission rates and prevent the largest number of
          children from becoming HIV-infected. For this reason, increasing testing rates during prenatal
          care should be a priority. Finally, rapid and expedited testing promises the possibility of being
          able to reduce transmission rates through testing and treatment of the mother when she presents
          in the hospital to deliver. With this safety net in the labor and delivery setting, women with
          inadequate prenatal care can still benefit from testing and treatment.

          While the legislative mandate requests recommendations for each State, we advocate that our
          recommendations be instituted in all States. In light of the fact that our findings are based on a
          nationally representative sample of obstetricians and supported by a variety of data sources, we
          feel that our general recommendations are appropriate for all States. In particular, we feel that
          the recommendations should be adopted regardless of prevalence level. First, there are very
          few States that do not contain high prevalence counties. Further, Congress mandated that our
          study explore the barriers that exist that might prevent or discourage obstetricians from offering
          HIV testing to all pregnant women and newborns whose status is unknown, with a goal to
          promote universal testing of pregnant women by obstetricians. In fact, our research has shown
          that obstetricians in low prevalence settings are more likely to face barriers to offering HIV
          testing. Finally, this disease is not static. Counties currently facing low prevalence may
          experience rising




Reducing Barriers to HIV Testing                       27                                   OEI-05-01-00260
          incidence in the future and should not dismiss the need for ongoing efforts to reduce the
          obstetrician barriers to testing.

          The legislative mandate also requires “the Secretary to collect information from the States
          describing the actions taken by the States toward meeting the recommendations specified for
          the States.” Towards this assessment, we offer our recommendations as a national template
          that States may use to evaluate their efforts to increase HIV testing rates by obstetricians. Each
          State could benchmark their current status against our recommendations, taking into account
          current efforts that may already address aspects of our recommendations (Appendix C). This
          benchmarking exercise would lay the foundation for evaluating the progress States make
          fulfilling these recommendations over the next few years. How each State chooses to respond
          to these recommendations would depend not only on where their current efforts put them on the
          continuum, but also on their assessment of the most problematic obstetrician barriers to offering
          HIV testing to all pregnant women, outlined in Appendix A and B. While our
          recommendations only speak to overcoming obstetrician barriers per the scope of our study,
          States might wish to benchmark their status and push for achievement with respect to all
          prenatal care and obstetric providers.

          How States respond and the resources they have available to implement these
          recommendations regarding testing rates will also be impacted by investments States may be
          making in other areas in the cascade of events that lead to perinatal transmission. Improving
          obstetrician testing rates is only one crucial step in the larger effort to reduce perinatally
          transmitted HIV. In a world of limited resources, tension exists between the implementation of
          solutions to achieve the intermediate goal of increasing testing and the ultimate goal of reducing
          perinatal transmission. When focusing on increasing HIV testing, all obstetricians, regardless of
          the HIV prevalence of their practice, should be targeted equally. When focusing on the range
          of efforts directed at reducing the incidence of perinatal transmission, concentrating
          disproportionately on those obstetricians practicing in high prevalence settings may have more
          impact. More broadly, in States with high testing rates, focusing prevention funding on
          preventing HIV infection among women of childbearing age may provide an effective means of
          reducing transmission. Given this tension, our recommendations have been purposely crafted
          to allow for State flexibility in their implementation.

The CDC Should Facilitating the Development of
Administrative Tools and States Should Promote
Administrative Tools to Make Prenatal HIV Testing Universally
Routine

          To have a significant impact on perinatal HIV transmission rates, we must ensure that all women
          are offered HIV testing, and treatment when positive, during prenatal care. To this end, we
          recommend that HIV testing during prenatal care become a part of the universal standard of
          care for pregnant women. This should be fully accepted and expected by the medical
          community, including institutions such as clinics, hospitals,



Reducing Barriers to HIV Testing                     28                                   OEI-05-01-00260
          managed care organizations and Medicaid. Our data shows that 74 percent of obstetricians
          indicated that making voluntary testing the standard of care at their clinic or hospital would be
          helpful in removing testing barriers.

          While prenatal HIV testing is a part of written office and clinic policies for almost half of
          obstetricians, the remaining providers and institutions should formally integrate this into their
          standard prenatal practice. Obstetricians with written office/clinic policies for prenatal HIV
          testing are significantly less likely to report barriers such as using risk assessments to determine
          testing. We offer some specific recommendations aimed at making HIV testing the universally
          practiced standard of care by incorporating HIV testing into routine practice and by
          streamlining the testing process.

The CDC should, working in partnership with national health care provider organizations,
promote the documentation of HIV testing by facilitating the development of model
administrative tools

          One way to reinforce HIV testing of pregnant women as the practiced standard of care is for
          CDC to promote the documentation of HIV testing on all regular paperwork such as patient
          prenatal, labor and delivery charts, laboratory request slips and medical records forms. This
          sends a strong message that HIV testing is an expected part of prenatal care and can be seen as
          the practical extension of CDC’s perinatal testing guidelines. It also serves as a constant
          reminder to perform testing. From our interviews, several respondents noted that obstetricians
          use prenatal charts like a checklist for the office visit. In fact, many obstetricians showed us
          that prenatal patient charts do not contain a space to document the mother’s HIV status, let
          alone whether or not HIV counseling and testing were offered.

          In order to promote the incorporation of HIV testing into expected practice, CDC should
          engage ACOG and other national health care provider organizations in a partnership to
          encourage the documentation of HIV testing on relevant records. It is crucial to include ACOG
          and other national health care provider organizations in any effort to impact obstetricians’
          professional practice. Our findings demonstrate that influencing private obstetrician behavior is
          a major challenge and obstetricians are more likely to remember materials sent by ACOG. To
          assist this effort to encourage documentation, the CDC, in partnership with ACOG, could
          develop and disseminate a variety of model administrative forms. The ACOG currently has
          prenatal chart forms for sale that include a space for HIV testing and disease status that could
          serve as the CDC model prenatal chart form. Models could also be gathered from prenatal
          screening protocols and administrative procedures employed by MCHB grantees.

          Another administrative tool that, if adopted by institutions, could impact the standardization of
          testing into all prenatal care would be a dual patient education and consent form. Again, CDC,
          in conjunction with ACOG and other provider organizations, could promote the use of such a
          form by creating and disseminating a model form. This form could be based on the minimum
          information essential for pregnant women prior to HIV testing as outlined in the revised CDC
          guidelines. In the new guidelines, the




Reducing Barriers to HIV Testing                       29                                   OEI-05-01-00260
          minimum pretest information is condensed to six very brief points that should easily fit on a
          single sheet of paper along with any other necessary consent information.

          Some health care systems have already adopted a dual counseling and consent form. The New
          York State health department has created and distributed a standard HIV consent form to all
          healthcare providers. The consent form includes patient information on the HIV test, the
          benefits of testing (including prevention of perinatal transmission), State confidentiality and
          reporting requirements and other pertinent information. The patient and healthcare provider
          both sign the form, and this fulfills the State’s pretest counseling and informed consent
          requirements. While no formal evaluation of the impact of this new form has been conducted,
          feedback from our respondents was extremely positive.

State health departments should ensure that HIV testing is documented to administratively
reinforce testing and should streamline consent to reduce burden

          States should actively work to ensure HIV testing documentation is incorporated as policy at
          the State and local levels, both within the public and private sectors. One way to promote
          documentation would be to disseminate and require the use of CDC developed model forms.
          On the other hand, many obstetricians and institutions may have forms designed specifically to
          fit their unique administrative procedures. In these cases, States may find it more practical to
          require the inclusion of HIV testing documentation on existing forms. Currently, 13 States
          require, by law or regulation, that the offer of HIV testing be documented. Fourteen more
          States recommend documentation as their policy.

          States should also work to streamline their counseling and consent procedures along the lines of
          the minimum requirements laid out in the revised CDC guidelines. The guidelines separate HIV
          prevention education from prenatal test offering. They recommend providing the patient prior
          to the test minimum pretest information rather than more extensive pretest counseling, which can
          be offered at another time. As with earlier CDC guidelines, States should review their laws,
          regulations, policies and guidelines and modify them if needed in order to adopt the new
          streamlined pretest process outlined in the CDC guidelines or the model form provided by
          CDC. The Washington State Board of Health, for example, asked the public health
          department to undertake a review of existing regulations to determine if these rules present a
          barrier to implementation of HIV testing in pregnant women. Simplifying the State counseling
          and consent requirements reduces some of the administrative disincentives to offering testing to
          all pregnant women, including the time and burden many obstetricians associate with the pretest
          process.

          In order for these tools to be effective, they must be implemented as policy at the local level in
          both public and private settings. Our findings demonstrated that obstetricians with written
          policy and procedures in place at their hospital or clinic were less likely to face barriers to
          universal prenatal testing. Incorporating these new tools into the written policies and practice
          standards of the private sector will require States to partner with institutions and provider
          associations. Another potential avenue would be to work with medical school residency
          programs and professional associations such as the American


Reducing Barriers to HIV Testing                      30                                   OEI-05-01-00260
          Board of Obstetrics and Gynecology (ABOG) to incorporate streamlined HIV testing practices
          into medical education and training.

The CDC and HRSA, in Collaboration with CMS, Should
Facilitate Efforts to Expand the Capacity to Offer
Linguistically Appropriate HIV Patient Education and Consent
Materials

          Language barriers affected more obstetricians than any other barrier. Multilingual patient
          education materials and consent forms may ease the difficulty of limited verbal communication
          enough to ensure that pregnant women with limited English have the opportunity to make an
          informed decision about HIV testing. In fact, 53 percent of obstetricians reported that patient
          education materials would be helpful in reducing barriers to HIV testing.

          Such efforts are in line with the Department of Health and Human Service’s “Strategic Plan to
          Improve Access to HHS Programs and Activities by Limited English Proficient Persons.”
          Among other goals, this strategic plan already calls upon all HHS agencies, including CDC, to
          assess language needs and capacity of all programs and activities and to provide oral language
          assistance services and written translations of vital documents. The Centers for Medicare &
          Medicaid Services has a similar goal in ensuring that Medicaid-covered pregnant women with
          limited English receive the opportunity to make an informed HIV testing decision.

          The CDC and HRSA should collaborate with CMS to expand the language resources for
          perinatal HIV education and consent. Through the Maternal HIV Consumer Information
          Project (CIP), CMS has already developed and test marketed patient outreach and education
          materials on perinatal HIV prevention in 14 languages, including Spanish, Chinese, Russian, and
          Vietnamese.43 Census data could be used to pinpoint other language needs. The CDC has
          partnered with ACOG in development of consent information and consent forms in Spanish.
          The CDC, HRSA and CMS should coordinate their efforts to achieve this similar goal so that
          they can maximize effectiveness and minimize duplication. The model pretest consent form,
          described in the previous recommendation, should be included in this multilingual effort.

          Community-based organizations and other programs that provide services to HIV positive
          women as well as national provider organizations should be incorporated into this effort to
          expand language resources. National health care provider organizations could provide
          invaluable insight into language translation needs as well as offer advice on appropriate content
          and usable formats. Community-based organizations, with their unique community perspective,
          have the knowledge necessary to develop linguistically appropriate, culturally sensitive
          translations.

          The CDC’s National Prevention Information Network (NPIN), could provide the repository
          for these materials. The CDC’s NPIN offers general HIV information in




Reducing Barriers to HIV Testing                     31                                  OEI-05-01-00260
          several languages; however, the selection of languages for materials specific to pregnancy and
          perinatal transmission remains limited. Also, using the NPIN network to refer providers to
          qualified national language banks and telephone translation services could also help to alleviate
          language barriers to offering HIV testing. Again, collaborating with national health care
          provider organizations to promote new language resources would be the most effective way to
          disseminate the information.

The CDC Should Facilitate Development and States’
Implementation of Protocols for HIV Testing During Labor and
Delivery in order to Promote Testing in this Setting as the
Standard of Care

          Impacting transmission through prenatal HIV testing is only possible for women who receive
          prenatal care. While great strides have been made in making prenatal care available, there are
          pockets of women, including HIV-infected women, that are less likely than the general
          population to access adequate prenatal care. For women who do not access prenatal care, as
          well as women who did not get tested during prenatal care, rapid or expedited HIV testing in
          the labor and delivery setting provides a crucial safety net. Currently, almost half of
          obstetricians face challenges to offering HIV testing to women in labor with an unknown HIV
          status. The most commonly reported barriers related to the process of conducting counseling
          and obtaining consent during labor, followed by limitations in the capacity to produce test
          results quickly. In order to promote rapid or expedited HIV testing as the standard of care for
          women with unknown status during labor and delivery, we recommend that protocols be
          developed and instituted at the hospital level.

The CDC should facilitate the development of a model protocol for HIV testing of
women with unknown HIV status at labor and delivery

          Because the labor and delivery setting involves many challenges to rapid or expedited HIV
          testing, CDC should develop protocols for hospitals to routinize this process. This could be
          done in consultation with professional associations such as ACOG and other government
          agencies such as the Agency for Healthcare Research and Quality, the lead agency responsible
          for research on the functioning, quality and costs of the health care system. Our findings indicate
          that institutional policies for HIV testing of pregnant women positively influenced the likelihood
          of obstetricians routinely offering testing to women in labor with unknown status. They also
          minimized some of the barriers that prevent testing during labor.

          The policies instituted in hospitals should encompass three main aspects in order to overcome
          the barriers this report identifies. First of all, they should develop appropriate counseling and
          consent procedures. Toward this end, CDC, in collaboration with ACOG, could promote the
          results, both interim and final, of their Mother Infant Rapid Intervention At Delivery (MIRIAD),
          which is evaluating innovative approaches to counseling and assessing the feasibility of obtaining
          informed consent.



Reducing Barriers to HIV Testing                      32                                  OEI-05-01-00260
          Secondly, CDC should offer States the technical assistance to ensure that all hospitals build the
          capacity, both administratively and technically, to produce HIV test results within the window
          of effective intervention. This could be accomplished by utilizing the Single Use Diagnostic
          System for HIV-1 (SUDS), the only FDA approved rapid test. Some States, such as Louisiana
          and Connecticut, have conducted perinatal prevention programs to explore rapid testing during
          labor. Broader preparation for the general availability and greater reliability of these tests, at
          this point in time, ensures hospitals’ ability to quickly integrate the latest medical advancements
          related to perinatal prevention. If hospitals are reluctant to use SUDS due to concern about the
          rate of false positives, they could opt for expedited testing, in which preliminary results of
          standard HIV tests are returned within a few hours. One State, New York, already requires by
          law that all hospitals produce the results of standard HIV tests conducted during labor within
          forty-eight hours. Other hospitals would likely need technical assistance in building the
          laboratory capacity to process standard tests quickly.

          Finally, the labor and delivery protocols should include guidance regarding the administrative
          procedures necessary to ensure the confidential, written communication of the mother’s testing
          status to the newborn’s physician. A lack of documentation of the mother’s HIV status in the
          newborn’s chart can mislead a pediatrician to assume that the mother had tested negative for
          HIV when, in fact, she may not have been tested at all. This misinformation could then impact
          the pediatrician’s subsequent recommendations for testing of the baby.

          This provision will need to take into consideration current State laws on confidentiality.
          According to a review of State laws conducted by ACOG, 20 States currently have
          confidentiality statutes that would allow for the disclosure of the mother’s HIV status to the
          newborn’s physician. Half of these States’ statutes directly reference the ability to disclose a
          mother’s HIV status to the physician of her child. The rest of the States have confidentiality
          laws that either explicitly prohibit or appear to prohibit such an exchange of information.

The CDC, CMS and States should partner with hospital associations to encourage
institutions to incorporate labor and delivery protocols for HIV testing based on
the CDC model protocols

          To achieve the effective implementation of these new labor and delivery protocols, CDC, CMS
          and States must work closely with hospitals and hospital associations. Ideally, the testing
          protocol would be incorporated into hospital’s written standards for quality care. The CDC
          and CMS can lay the foundation for this effort by partnering with such entities as the American
          Hospital Association in order to promote the adoption of the protocol. Working with the Joint
          Commission on Accreditation of Healthcare Organizations to include a labor and delivery
          protocol for HIV testing in their accreditation process or including HIV testing at labor and
          delivery as a measure in the Health Plan Employer Data and Information Set (HEDIS) are other
          possible routes to encouraging hospitals to adopt the protocol.




Reducing Barriers to HIV Testing                      33                                  OEI-05-01-00260
The CDC Should Encourage and Assist States to
Appropriately Monitor HIV Testing of Pregnant Women

          As a final means to improve the testing behavior of health care providers, we recommend that
          CDC work with State health departments to establish monitoring mechanisms that track HIV
          testing during pregnancy by provider. Monitoring testing rates, in conjunction with appropriate
          feedback, has the potential to alter behavior in instances where knowledge alone has proved
          insufficient. Our data, as well as previous research, shows a discrepancy between what
          obstetricians know regarding the expected standard of care and their testing behavior,
          indicating that more education and training will not alter testing behavior for some obstetricians.
          Despite widespread knowledge that all pregnant women should be tested for HIV, 13 percent
          of obstetricians indicated that their assessment that their patients were at low risk has prevented
          them from testing.

          The CDC should assist States in developing monitoring systems that are appropriate to State
          and local needs. This could be accomplished by providing the technical assistance, including
          model tools, to assist hospitals or practices learn how to monitor and review their testing rates.
          Current monitoring systems and laws in 14 States offer a continuum of potential monitoring
          models for the rest of the country. The CDC could promulgate best practices from these
          models.

          At one end of the spectrum, Tennessee law requires that each health care provider report the
          total number of pregnant women tested for HIV and the total number of women who tested
          positive on a monthly basis to the public health department. The department is required to
          publish these figures for the entire State and for each county. Texas has developed a
          monitoring system that relies on hospitals rather than physicians. Hospitals record whether HIV
          testing has occurred and whether zidovudine was administered during pregnancy on every birth
          certificate. The State department is then responsible for compiling and utilizing this information.
          One advantage to a hospital-based solution is that it not only allows for the identification of
          those obstetric providers who are not testing during prenatal care, but could also assist in
          identifying those patients who were not tested or treated for reasons that are beyond the control
          of obstetricians. Other States have instituted methodologies such as random chart audits that do
          not require universal reporting by either physicians or hospitals. New York conducts periodic
          on-site reviews to determine compliance with the prenatal HIV counseling requirements as well
          as HIV test acceptance rates. They offer technical assistance based on their analysis of these
          medical record reviews.

          Several other States have instituted the Pregnancy Risk Assessment Monitoring Systems
          (PRAMS) or enhanced perinatal surveillance, in collaboration with CDC. The PRAMS is a
          population-based surveillance system that collects information on maternal behaviors and
          experiences around the time of pregnancy. Enhanced perinatal surveillance only collects HIV
          testing information for HIV-infected women and thus can only be used to assess missed
          prevention opportunities. Michigan, for example, reviews cases at individual hospitals and
          practices where “missed opportunities” occurred and offers



Reducing Barriers to HIV Testing                      34                                  OEI-05-01-00260
          assistance in revising policies to prevent future problems. While assessing missed opportunities
          would not monitor whether all doctors were offering testing to all of their patients, it may prove
          to be an acceptable compromise for low prevalence counties where investments in a broader
          monitoring effort may not be practical. Several of the monitoring systems profiled would be
          resource intensive to develop and maintain. Currently, low prevalence areas do not receive
          money for enhanced perinatal surveillance. This, and other resource issues, may limit the
          extensiveness of the monitoring systems they are able to develop.

The CDC, HRSA and States Should Pursue Public/Private
Partnerships to Design, Implement and Institutionalize
Targeted Efforts to Remove Obstetrician Barriers

          Collaborating with the private sector is essential in order to overcome the communication
          barrier that often exists between prevention experts focused on public health issues and health
          care professionals working in the context of a private market. Although most States indicate
          that they have engaged private partners in various perinatal efforts, we believe that States could
          benefit from even greater collaboration. The number one challenge faced by 36 States is
          influencing the behavior of private obstetricians. Without on-going, active partnerships with
          private providers, States may be missing opportunities to provide private obstetricians with the
          information and tools necessary to overcome barriers, or may not be effectively reaching many
          practitioners. Professional organizations and private providers understand the best ways to
          reach and convince providers.

The CDC and HRSA should utilize public/private partnerships in implementing all
the recommendations in this report by expanding current partnership projects

          Both CDC and HRSA have established partnerships with national health care provider
          organizations and other stakeholder organizations aimed at accomplishing perinatal transmission
          objectives. As mentioned in the background, CDC funds programs aimed at reducing perinatal
          transmission through ACOG, AAP and others national organizations. The Maternal and Child
          Health Bureau (MCHB) of HRSA funded a program, administered by ACOG, designed to
          foster partnerships between State agencies and private obstetricians around the topic of
          perinatal transmission. These partnerships were established in two States. The MCHB also
          administers the Healthy Start program to mobilize strong coalitions of consumers, local and
          State governments, the private sector, schools, perinatal providers and neighborhood
          organizations to improve health care access and outcomes for women and infants. The
          Association of Maternal and Child Health Programs (AMCHP) has established eight State
          “Action Learning Labs” that bring together a coalition of public and private stakeholders to
          educate each other across State lines. We strongly support these efforts and recommend their
          expansion in order to most effectively implement the preceding recommendations. We have
          addressed the specifics of these partnerships in the appropriate recommendation.




Reducing Barriers to HIV Testing                      35                                  OEI-05-01-00260
          The CDC should provide States with an impetus to include private providers in their efforts to
          overcome obstetrician barriers by including collaborative language in grants and guidance
          documents. This language could encourage the development, maintenance and reporting of
          collaborative partnerships. The HRSA should strengthen application guidance materials for all
          Ryan White CARE Act providers to come into compliance with all recommendations. Finally,
          CDC and HRSA should be prepared to assist grantees in their public/private partnerships when
          necessary by leveraging their national level partnerships.

States should incorporate private partners in implementing all recommendations
in this report

          State and local initiatives should strive to incorporate partners from the private sector in all
          efforts to address obstetrician barriers to offering HIV testing. As stated previously, the most
          efficacious implementation of our recommendations rests on the ability of States to implement
          and institutionalize them as policy and practice at the local level. Collaboration with private
          partners is necessary to make this happen. These private partners should be active participants
          in the design and implementation of prevention efforts. This could be done by incorporating
          partners such as obstetricians, representatives from clinics or hospitals or representatives from
          professional organizations such as ACOG, American Academy of Pediatricians (AAP),
          American Academy of Family Physicians (AAFP), American College of Nurse-Midwives
          (ACNM) or American Hospital Association (AHA) into ongoing or newly created task forces.




Reducing Barriers to HIV Testing                     36                                  OEI-05-01-00260
                                   AGENCY COMMENTS

          We received comments on our draft report from HRSA, CDC, CMS and ACOG. Each
          organization indicated that the report presented useful information for shaping future efforts to
          increase the HIV testing rates of obstetricians and thereby reduce perinatal HIV transmission.
          Each organization also supported the substance of the recommendations, although CDC
          expressed some reservations regarding their role in implementation. These reservations, as well
          as other issues of concern, are reviewed below. One concept all of the organizations endorsed
          was the collaborative nature of the recommendations. The ACOG in particular made note of
          the fact that the recommendations called for greater involvement of obstetricians, stating that
          “the public/private partnership strategy is one of the best available for identifying which barriers
          and implementing effective strategies that will influence obstetricians behavior.”

          While expressing support for the recommendations and a willingness to work towards their
          implementation in a collaborative fashion, the CDC expressed concern that they were called
          upon to take a leadership role rather than a supporting one. They indicated that they believe
          they can more effectively aid in the implementation of our recommendations in an advisory
          capacity, providing technical assistance in developing standards and guidelines.

          We recognize that CDC is not always in the position to direct outside groups and that in these
          cases their leadership comes in the form of support and influence. We have modified our
          recommendations accordingly by emphasizing CDC’s ability to “facilitate” desirable actions and
          outcomes. By emphasizing CDC’s role as facilitator, we reflect on their initial success in
          promoting HIV testing of pregnant women via official recommendations for testing and through
          their administration of the perinatal prevention grants. We believe that, as part of their
          prevention mission, CDC has a powerful role to play in facilitating and orchestrating further
          efforts to ensure that HIV testing is offered to all pregnant women.

          We also recognize that the recommendations put forth will require a broad array of resources
          to accomplish effectively, beyond that which CDC alone can bring to bear. For this reason, the
          recommendations were not directed solely to CDC, but rather to CDC in collaboration with
          HRSA, CMS, and the States. Within the text of the recommendations, we offer other potential
          partners such as ACOG and other professional organizations. It is our hope and expectation
          that all of the stakeholders mentioned will actively collaborate with CDC to accomplish our
          recommendations.

          Both HRSA and ACOG shared concerns related to the scope of the report. Both
          organizations pointed out that by not including other providers of prenatal and obstetric care,
          such as family physicians and certified nurse midwives, our findings and recommendations may
          not have relevance to the larger issue of increasing testing rates. It is true that the scope of this
          report was limited to obstetricians and excluded other health



Reducing Barriers to HIV Testing                       37                                    OEI-05-01-00260
          care providers. This limitation was based on the statutory language mandating this study. As
          such, this report only offers data regarding barriers to testing faced by obstetricians and
          recommendations on how to alter obstetrician practices. The extent to which these
          observations and recommendations are representative of the practices of other health care
          providers is unknown. However, obstetricians represent a major and important provider of
          health care in this arena. The ACOG estimates that 85 percent of deliveries are attended by an
          obstetrician and believes that a somewhat lesser, yet unknown, percentage of prenatal care is
          provided by obstetricians. While all providers of prenatal and obstetric care should be
          encouraged to universally offer HIV testing to pregnant women, improving the testing rates of
          obstetricians would certainly result in improving overall testing rates.

          Finally, ACOG pointed out that some of the barriers faced by obstetricians are beyond
          obstetricians’ control. For example, counseling and consent laws, the lack of rapid tests in the
          labor and delivery setting and State confidentiality laws all may act as barriers to HIV testing.
          This is certainly true, and our recommendations request States to review such impediments.
          Due to the matrix of institutional and practice barriers we have identified, our recommendations
          suggest that responsible Federal agencies, States and private provider associations work
          together toward their common goal of increasing testing rates and reduce perinatal transmission.

          For a more detailed review of the comments provided by CDC, HRSA, CMS and ACOG,
          please refer to Appendix I. This Appendix contains the general comments from all four
          organizations. We also received technical comments which were considered carefully and
          incorporated into the report as appropriate.




Reducing Barriers to HIV Testing                     38                                  OEI-05-01-00260
Table 1. Estimate of the number of HIV-positive infants, by mother’s knowledge of HIV status

before, at, or after birth, United States, 2000



                                                        Rate    Low estimate   Estimate         High Estimate

 Modeled estimate of HIV+ women 13-44
 diagnosed and living with HIV without AIDS in
 2000 (1)                                                                      72,336

 Adjustment to estimate undiagnosed HIV+                        (Low 1.11)                        (High 1.19)
 women (2)                                                        80,293                            86,080

 Estimated births to HIV+ women 15-44 without
 AIDS (avg. 6 births per 100 PY) (3)                               4,818                             5,165

 Estimated number of women 13-44 living with
 AIDS in 2000 (4)                                                              49,238

 Estimated births to 46% women with immunologic
 AIDS (3.2 pregnancies per 100 PY) (5)
                                                                    725          (=)                  725

 Estimated births to 54% women with clinical
 AIDS (2.0 pregnancies per 100 PY) (6)                              532          (=)                  532

 Estimated total births (7)                                        6,075                             6,422

 Scenario I (Based on observed data)

 (Proportion) and number of births whose mothers
 were diagnosed:

     before birth                                       (.89)      5,407                             5,716
     at birth                                           (.05)        304                               321
     after birth (8)                                    (.06)        364                               385

 (Transmission rates (tm)) and number of HIV+
 infants whose mothers were diagnosed:

                                                          tm
 before birth                                            rate
                       60% combination ARV              (.02)         65                                   69
                       40% ZDV 076                      (.06)        130                                  137
     at birth                                           (.10)         30                                   32
     after birth (9)                                    (.25)         91                                   96
     Total                                                           316                                  334

 Scenario I: Estimated HIV+ Infants (10)                                       280-370

 Estimated HIV+ Infants whose mothers were
 diagnosed after birth (9)                                          80                                110




Reducing Barriers to HIV Testing                   53                                   OEI-05-01-00260
                                                     Rate       Low Estimate   Estimate         High Estimate

 Scenario II: Hypothetical data assuming
 mothers diagnosed after birth were
 diagnosed before birth

 (Proportion) and number of births
 whose mothers were diagnosed
 before birth (0.89 + 0.06)                             (.95)   5,771                           6,101
 at birth                                               (.05)   304                             321

 (Transmission rates) and
 number of HIV+ infants whose
 mothers were diagnosed:

 before birth: 60% combination ARV                  (.02)       69                              73
                 40% ZDV 076                        (.06)       138                             146
                 at birth                           (.10)       30                              32

                     Total                                      237                             251


 Scenario II: Estimated HIV+ infants (11)                       210                             280



 Scenario III: Hypothetical data assuming all
 mothers were diagnosed before birth

 (Proportion) and number of births whose mothers        (1.0)   6, 075                          6,422
 were diagnosed before birth (.89+.05+.06)

 (Transmission rates) and
 number of HIV+ infants whose mothers were
 diagnosed:

 before birth: 60% combination ARV                      (.02)   73                              77
                 40% ZDV 076                            (.06)   146                             154

                     Total                                      219                             231

 Scenario III: Estimated HIV+ infants (12)                      190                             260




Reducing Barriers to HIV Testing                   54                                     OEI-05-01-00260
Footnotes__________________________________________

(1) CDC unpublished data. Dr. Robert H. Byers developed a Poisson regression model to estimate the
    number of persons living with diagnosed HIV infection in the United States. The model is based on
    data from 25 states that conduct confidential (i.e. by patient name) HIV case reporting. Estimates of
    the number of prevalent diagnosed cases of HIV are derived from the relationship between AIDS
    incidence and deaths, taking into account race/ethnicity, risk, age, and a proxy variable for the age of
    the epidemic in each state. A parsimonious model was selected that obtained the best fit of observed
    cases to modeled estimates and the model was applied to non-HIV reporting states. The estimated
    total number of women (13-44) living with diagnosed HIV (without AIDS) in the United States was
    derived. An approximate 95% confidence interval for the estimate is from 71,809 to 72,865. These
    numbers do not represent actual counts of HIV-infected women because they are based on a model.
(2) Not all HIV-infected women are diagnosed with HIV in the 25 HIV reporting states that were the
    basis for the total U.S. estimates in (1) above. Thus, the estimate only represents a proportion of all
    women with HIV (without AIDS). We used two methods (high and low) to adjust the estimate in
    (1). In data from 7 states (Wortley et al., 2001), the number of mother-infant pairs that were
    diagnosed and reported to HIV/AIDS surveillance was 90% of the total number of births to HIV+
    women in those states, as estimated from the anonymous Survey of Childbearing Women. This rate
    of completeness of reporting was used to obtain the factor for the low estimate (1/.9=1.11). Because
    these data only represented 7 states, we used an indirect method to obtain the factor for the high
    estimate. Assuming that the number of prevalent HIV cases in women 15-44 years from previously
    published estimates remained stable (Davis et al., 1998), we compared the estimated prevalence of
    HIV (without AIDS) for the U.S. (86,000 in 1994) to the estimated prevalence of diagnosed HIV
    (without AIDS) in 2000 (86,000/72,000=1.19).
(3) We used published data from Lee et al., 2000. The average number of births to HIV+ women
    (without AIDS) was 6 per 100 person years (PY). The data were derived from a population of
    positive compared to negative women receiving Medicaid in Maryland. Although not necessarily
    representative of all HIV+ women in the U.S., the study is unique in examining fertility of HIV+
    women in the U.S. and the study population included mostly racial/ethnic minority women who
    account for the vast majority of AIDS cases in women in the U.S. The underlying assumption is that
    the age distribution and fertility of the study population is similar to that of all HIV+ U.S. women.
(4) Estimate is derived from national AIDS surveillance data and represents all women of childbearing
    age living with AIDS in the U.S. at the end of 2000. Data are adjusted for reporting delays. (CDC
    unpublished data)
(5) With increasing age, both fertility decreases and HIV disease progresses, which in itself is associated
    with decreased fertility. Fertility has generally been presumed to be low in women with AIDS. To
    estimate births to women with AIDS, we used unpublished CDC data from the Adult/adolescent
    Spectrum of Disease project (ASD) conducted in over 100 clinics in 11 U.S. cities. Data on HIV+
    adults/adolescents are abstracted at 6 month intervals. We calculated the number of recorded
    pregnancies for women 15-44 per 100 person years of observation during 1994-1999. For women
    with AIDS, we divided our calculations into women with immunologic AIDS (representing 46% of
    women with AIDS and having 3.2 pregnancies per 100 person years (PY)) and,
(6) women with clinical AIDS (i.e. AIDS opportunistic illnesses; 54% of women with AIDS and having
    2.0 pregnancies per 100 PY). ASD does not necessarily record pregnancy outcome such that the
    underlying assumption is that the pregnancies resulted in live births, which may slightly overestimate
    the number of live births to women with AIDS.
(7) The sum of (3), (5), and (6) for low and high estimates.


Reducing Barriers to HIV Testing                      55                                        OEI-05-01-00260
 (8) In 7 states that conducted the Surveillance to Evaluate Prevention project (STEP), the proportion of
     mothers who were tested for HIV before their child’s birth rose from 1993 through 1997 and then
     stabilized at an estimated 89% of all perinatally exposed infants who were diagnosed as indeterminate
     or infected and reported to surveillance; 5% of mothers were diagnosed at the time of labor and
     delivery, and 6% of mothers were found to be HIV positive after their child’s birth. This assumes
     that mothers who are diagnosed before birth have the opportunity for all 3 arms of the 076 protocol
     (prenatal, intrapartum, neonatal); those diagnosed at birth have the opportunity for two arms; infants
     of those diagnosed after birth may receive one or no arms. (CDC unpublished data; Hammett et al.,
     2001)
 (9) Because there is a lag between births to positive mothers and enough time to conduct follow up
     testing of the infant to determine infection status, and for reporting to health departments and then to
     CDC, we used unpublished CDC data on transmission rates for perinatally exposed infants reported
     from the 7 STEP states who were born during 1995 through 1997. Mothers who had an opportunity
     to receive all three arms of the Pediatric AIDS Clinical Trials Group (PACTG) protocol 076
     (prenatal, intrapartum, neonatal) had an observed 6% transmission rate. Based on data from all HIV
     reporting states in 2000, we applied that transmission rate (i.e. 0.06) to 40% of the estimated number
     of infants born in 2000 whose mothers were diagnosed before birth. We applied a lower transmission
     rate (2% from recent unpublished data presented at national conferences from observational cohorts)
     to 60% of mothers who were diagnosed before birth. These mothers were receiving combination
     antiretroviral therapy which reduced transmission to rates substantially lower than those observed for
     the 076 protocol alone (8% in the PACTG 076 trial). The data from STEP states are more recent
     and may reflect additional factors associated with reductions in transmission, such as stage of
     maternal disease or mode of delivery, thus accounting for the observed 6% in these states versus 8%
     in the 076 trial. We applied a transmission rate of 0.1 to those mothers who were diagnosed at birth
     (intermediate between 6% and 14%, the range observed for infants who received two or one
     arm(s)). In the 7 STEP states, the observed transmission rate for all perinatally exposed infants
     diagnosed and reported for the baseline year 1993 (before 076 results) was approximately 20%.
     However, we applied the 25% reported for the placebo arm in the 076 trial to the 6% of births whose
     mothers were diagnosed after birth to produce a conservative (i.e. maximum) estimate of the number
     of infected infants born because their mothers were not tested at or before birth. The estimated
     range of the number of infants born whose mothers were not diagnosed before or at birth is from 91
     to 96 infants. Because the parameter estimates in this exercise are derived from a variety of studies
     each of which may represent a small proportion of all HIV+ mothers in the U.S. , we adjusted our
     estimates to an approximate range of +/- 10% (82-106), and rounded up and down to the nearest ten,
     for an estimated range of 80 to 110.
(10)The sum of the estimates of positive births for all categories of timing of maternal diagnosis and
     transmission rates. As in (9), the calculated range of 316 to 334 is based on estimates that are not
     necessarily representative of all HIV+ U.S. mothers and we estimate that an approximate range is
     +/- 10% or 284 to 367, which, rounded to the nearest ten, is 280-370 HIV-positive infants born in
     2000. The estimated proportion of all HIV+ infants born in 2000 that is attributable to mother’s
     testing after birth ranges from 22% (80/370) to 39% (110/280). The peak number of live births to
     HIV+ women occurred in 1991. From the anonymous Survey of Childbearing Women, an estimated
     7,040 births to HIV+ mothers occurred in that year, of which it is assumed that 1,760 were HIV+
     infants based on a 25% transmission rate. The estimated range of 280 to 370 HIV+ infants born in
     2000 represents a decline in perinatally acquired HIV infections of between 79% and 84%. This is
     consistent with the observed decline perinatally acquired AIDS cases. These cases peaked in 1992
     and declined more than 80% through 2000.
 (11)At OIG’s request, we constructed two hypothetical scenarios. First, assuming that all mothers
     diagnosed after birth were diagnosed before birth and received treatment prenatally, the estimated

Reducing Barriers to HIV Testing                      56                                        OEI-05-01-00260
   number of HIV-positive infants born in 2000 would be 237-251. After adjusting +/- 10% and rounding
   to the nearest ten, the estimated number of HIV-positive infants under this scenario is in the range
   210-280.
(12)        Second, assuming that all mothers diagnosed at or after birth were diagnosed before birth and
   received treatment prenatally, the estimated number of HIV-positive infants born in 2000 would be
   219-231. After adjusting +/- 10% and rounding to the nearest ten, the estimated number of HIV-
   positive infants under this scenario is in the range 190-260.




References:


Davis, SF, DH Rosen, S Steinberg, PM Wortley, JM Karon, M Gwinn. Trends in HIV prevalence among
childbearing women in the United States, 1989-1994. Journal Acquir Immune Defic Syndr and Hum
Retro 1998;19:158-164.

Hammett, T, ML Lindegren, R Byers, P Wortley. Progress towards elimination of perinatal HIV
infection in the United States. XIII International AIDS Conference, Durban, South Africa. July 9-14,
2000. Abstract MoOrC239 (page 103).

Lee, LM, PM Wortley, PL Fleming, LJ Eldred, RH Gray. Duration of human immunodeficiency virus
infection and likelihood of giving birth in a medicaid population in Maryland. Am Journal Epidem
2000;151:1020-1028.

Lindegren, ML, R Byers, P Thomas, et al. Trends in perinatal transmission of HIV/AIDS in the United
States. JAMA 1999;282:531-538.

Wortley PM, ML Lindegren, PL Fleming. Successful implementation of perinatal HIV prevention
guidelines: a multistate surveillance evaluation. CDC MMWR 2001;50(No.RR-6):17-28.




Reducing Barriers to HIV Testing                    57                                       OEI-05-01-00260
Table 2. Summary * of Estimated transmission rates and numbers of HIV+ infants whose

mothers were undiagnosed before, at, or after birth, United States, 2000



 Diagnosed                    Proportion           Transmission              Low estimate of          High estimate of
                              Treated                                        births                   births

 Before birth                 0.6 ARV              0.02                      65                       69

                              0.4 ZDV 076          0.06                      130                      137

 At birth                                          0.10                      30                       32

 After birth                                       0.25                      91                       96

 Total                                                                       316                      334
* Derived from Table 1

**Estimated range after adjustment and rounding (see footnote 10): 316 x 0.9=284; round down to 280; 334 x 1.1=367





Table 3. Summary* of estimated ranges of HIV+ infants born in 2000 assuming three scenarios
- 89%, 95% and 100% of mothers diagnosed before birth and treated prenatally, United States,
2000.


 Proportion of mothers diagnosed before birth:                  Adjusted estimated ranges of HIV+ infants

 .89                                                            280-370

 .95                                                            210-280

 1.00                                                           190-260
* Derived from Table 1





Reducing Barriers to HIV Testing                             58                                             OEI-05-01-00260
                                                                                                              APPENDIX E




                            National Obstetrician Survey Instrument


1.   Do you currently practice obstetrics? 


              Yes                        No         (If NO, please SKIP to Question 23 )

2. In what State and zip code is the majority of your obstetrics practice located?


                                                      (For the rest of this survey, please ONLY consider your practice in this
             State                 Zip Code
                                                      particular location.)

PRENATAL HIV COUNSELING AND TESTING
3.   To how many of your pregnant patients do you offer HIV testing?


             None                   Some                            Most                        All

4.   Which BEST describes your procedure for offering HIV testing to a pregnant patient? (Check ONE)


               Advise her that I will perform the test and that she has the right to refuse

               Offer to perform an HIV test but indicate that it is her choice

5.	 Which steps, if any, occur prior to you testing a pregnant woman for HIV? (Check ALL THAT

    APPLY)


     I (Obstetrician) discuss HIV and perinatal transmission with                     Patient signs consent form to cover all
patient                                                                           prenatal tests

     Other staff discusses HIV and perinatal transmission with patient                   Patient signs specific consent form for HIV
                                                                                  test

     Patient receives written information or a video on HIV                              Patient gives verbal consent for HIV test

    Other (please specify)
____________________________________________________________________________________


6.   Which category BEST reflects your HIV testing practices with each of the following types of patients?


                                                         Recommend               Test only upon             Offer         Recommend
                                                        against testing          patient request           testing          testing
       Pregnant women at high risk for HIV

       Pregnant women at low risk for HIV


7.   What steps do you take if your pregnant patient refuses to consent to HIV testing?





Reducing Barriers to HIV Testing                                   59                                                  OEI-05-01-00260
                          Document refusal in the patient’s medical record                                                                              No                       Yes

                          Inquire as to the reason for refusal                                                                                          No                       Yes

                          Re-offer testing at a subsequent prenatal appointment                                                                         No                       Yes

                          Other (please specify)____________________________________                                                                    No                       Yes

              8.         Does your office/clinic have a written policy regarding HIV counseling and testing of pregnant women?

                                  No                                    Yes


              9.         Are you familiar with your State’s laws or policies regarding HIV testing of pregnant women?

                                No, I’m not familiar                                                 Yes, I’m familiar                                          My State has no such laws or policies



              PRENATAL HIV TESTING BARRIERS
              For Questions 10 and 11, please consider only the time period prior to the onset of labor.


              10.	       Please consider any instances in which you have NOT offered HIV testing to a pregnant patient. Has
                         each of the following EVER been a reason that you have NOT offered an HIV test to a pregnant
                         patient? If yes, HOW OFTEN has this prevented you from offering an HIV test?

                                                                                                     Has This Ever Prevented
                                                                                                  You from Offering an HIV Test?        Once or twice        Sometimes             Often                Always

Pretest counseling too time-consuming                                                                      No             Yes ý

Consent process too time-consuming                                                                         No            Yes ý

Patient is at low risk                                                                                     No            Yes ý

Concern about offending patient                                                                            No            Yes ý

Late entry into prenatal care                                                                              No            Yes ý

Inadequate reimbursement                                                                                   No            Yes ý

Concern about informing a pregnant woman she’s HIV-positive                                                No            Yes ý

Concern about treating an HIV-positive patient                                                             No            Yes ý

Language barrier                                                                                           No            Yes ý

It is not the standard of care in my hospital/clinic                                                       No            Yes ý



              11.	 To what extent would each of the following help YOU, in your practice, to routinely offer HIV testing
                   to all of your pregnant patients?
                                                                                                                                    Not            Somewhat                 Very
                                                                                                                                   Helpful          Helpful                Helpful
                                 Continuing education courses on perinatal HIV

                                 Training on HIV counseling

                                 Scripts for HIV counseling

                                 Reducing time involved in pretest counseling requirements

                                 Reducing time involved in consent requirements

                                 Designating a non-physician staff member to conduct HIV counseling and to obtain consent

                                 Making voluntary HIV testing of all pregnant women the standard of care in my hospital/clinic

                                 Inclusion of HIV test in standard prenatal testing battery




              Reducing Barriers to HIV Testing                                                                   60                                                   OEI-05-01-00260
                              Resource lists of HIV specialists and treatment hotlines

                              Patient education materials




             HIV COUNSELING AND TESTING DURING LABOR AND DELIVERY
             12. Do you offer HIV testing to women in labor with unknown HIV status?

                                 Never                                  Sometimes                                    Often                          Always


             13.	 Please consider any instances in which a woman presented in labor with unknown HIV status. Has each
                  of the following EVER been a reason that you have NOT offered an HIV test during labor? If yes,
                  HOW OFTEN has this reason prevented you from offering an HIV test?

                                                                                                          Has This Ever Prevented
                                                                                                       You from Offering an HIV Test?               Once or twice           Sometimes        Often     Always

Test results take too long                                                                                     No            Yes ý

Rapid or expedited HIV tests not available                                                                     No            Yes ý

Too much emotional stress for patient                                                                           No           Yes ý

Insufficient time to counsel during labor                                                                      No            Yes ý

Too difficult to obtain consent during labor                                                                   No            Yes ý

Too late for preventive treatment                                                                              No            Yes ý

Hospital did not have antiretroviral drugs available for treatment                                             No            Yes ý



             HIV TESTING OF NEWBORNS
             14.      What are your HIV testing practice(s) for newborns whose mother’s HIV status is unknown?

Newborn testing is handled solely by newborn’s physician                                                                      Never     Sometimes        Often          Always

I recommend testing to the newborn’s physician                                                                                Never     Sometimes        Often          Always

I recommend newborn HIV testing to the mother                                                                                 Never     Sometimes        Often          Always

I perform/order an HIV test for the newborn                                                                                   Never     Sometimes        Often          Always

Other (please specify) _______________________________________________________________________________________



             15.	     Please consider newborns whose mother’s HIV status is unknown. Has each of the following EVER
                      been a reason that you have NOT tested such a newborn for HIV? If yes, HOW OFTEN has this
                      reason prevented you from testing a newborn for HIV?

                                                                                                             Has This Ever Prevented
                                                                                                                You from Testing?                   Once or twice           Sometimes        Often     Always

Recommended test to newborn’s physician                                                                         No            Yes ý

OB not responsible for newborn testing                                                                          No            Yes ý

Lack of communication with newborn’s physician                                                                  No            Yes ý

Testing violates mother’s privacy                                                                               No            Yes ý

Parent(s) refused consent                                                                                       No            Yes ý

Patient(s) not likely to return for follow up                                                                   No            Yes ý



             16. Are you familiar with your State’s laws or policies regarding HIV testing of newborns?
                     No, I’m not familiar                                                Yes, I’m familiar                                   My State has no such laws or policies




             Reducing Barriers to HIV Testing                                                                        61                                                              OEI-05-01-00260
         ADDITIONAL INFORMATION AND SUGGESTIONS
         17. Please describe any additional barriers to testing pregnant women and/or newborns for HIV.





         18.	 Please offer any additional suggestions for reducing barriers to HIV testing of pregnant women and/or

              newborns?





         BACKGROUND INFORMATION

19. Approximately what percentage of your practice is obstetrics?
                                   %


20. Have you ever provided care for an HIV-positive pregnant woman?
                                         Yes               No

         21. Have you received any educational materials or training on perinatal HIV from the following sources?


           The American College of Obstetricians and Gynecologists (ACOG)                  Yes            No

           The Centers for Disease Control and Prevention (CDC)                            Yes            No

           Your State or local health department                                           Yes            No

           Your hospital                                                                   Yes            No

           Education course (outside your hospital)                                        Yes            No

           Insurance company or managed care organization                                  Yes            No

         22. About what percentage of your pregnant patients utilize each of the following insurance sources?


                  % Private Insurance          % Medicaid                       % Self-Pay/No Insurance              % Other


         23. Please provide the following demographic information.


 a. Practice location:             Urban                       Suburban           Rural                   Military

 b. Practice setting:         Private, community           Private, hospital   Public, community     Public, hospital

 c. Gender:                        Female           Male

 d. Years since completion of residency:           Years




         Reducing Barriers to HIV Testing                                 62                                       OEI-05-01-00260
                                                                                   APPENDIX F



                         Confidence Intervals for Selected Statistics




                                                                                     90 Percent
                                                                   Point             Confidence
                                   Statistic                      Estimate   n        Interval
 Percent of obstetricians reporting the following
 testing practices:

 Routinely offer HIV testing to all prenatal patients               92.9%    475     90.9% to 94.8%

 Routinely offer HIV testing to women of unknown status during      48.0%    464     44.2% to 51.8%
 labor

 Never offer HIV testing to women of unknown status during          17.0%    464     14.2% to 19.9%
 labor

 Newborn testing is the responsibility of the newborn’s             93.4%    435     91.4% to 95.3%
 physician

 Percent of obstetricians reporting that this barrier
 has ever prevented test offering during prenatal
 care:

 Language barrier                                                   15.1%    458     12.3% to 17.8%

 Late entry into prenatal care                                      13.3%    458     10.7% to 16.0%

 Patient population is at low risk                                  13.1%    460     10.5% to 15.7%

 Pretest counseling too time consuming                              5.3%     457      3.5% to 7.0%

 Consent process too time consuming                                 5.0%     457      3.4% to 6.7%

 Concern about offending patient                                    4.6%     457      3.0% to 6.2%

 Inadequate reimbursement                                           1.5%     458      0.6% to 2.5%

 It is not the standard of care in my hospital/clinic               1.1%     452      0.3% to 1.9%

 Concern about informing a pregnant woman she is HIV+               0.7%     457      0.0% to 1.7%

 Concern about treating an HIV+ patient                             0.7%     458      0.0% to 1.7%




Reducing Barriers to HIV Testing                             63                        OEI-05-01-00260
                                                                                       90 Percent
                                                                       Point           Confidence
                                   Statistic                          Estimate   n      Interval
 Percent of obstetricians reporting that this barrier
 has ever prevented test offering during labor:

 Insufficient time to counsel during labor                              32.2%    451    28.6% to 35.8%

 Too difficult to obtain consent during labor                           28.2%    450    24.8% to 31.8%

 Test results take too long                                             18.9%    451    15.9% to 21.9%

  Rapid or expedited HIV tests not available                            17.8%    451    14.8% to 20.7%

 Too late for preventive treatment                                      17.7%    450    14.2% to 20.0%

 Too much emotional stress for patient                                  8.9%     451    6.7% to 11.0%

 Hospital did not have antiretroviral drugs available for treatment     1.1%     449     0.3% to 1.9%

 Percent of obstetricians reporting the following
 sources of information on perinatal HIV:

 Received educational information or training from ACOG                93.6%     469   91.7% to 95.5%

 Received educational information or training from CDC                 71.2%     465   67.7% to 74.6%

 Received educational information or training from their               28.9%     463   25.4% to 32.3%
 hospital

 Received educational information or training from their               53.0%     462   49.2% to 56.8%
 State or local health department

 Office/clinic has a written policy on HIV testing of                  45.9%     470   42.2% to 49.7%
 pregnant women

 Obstetrician is familiar with State laws or policies on HIV           61.5%     471   58.0% to 65.1%
 testing of pregnant women




Reducing Barriers to HIV Testing                                64                        OEI-05-01-00260
                                                                                                         APPENDIX G


                      Logistic Regression Models


We used logistic regression to identify predictors of several key variables. The following tables display the odds
ratios for each of the significant predictors (at p< 0.10 level) in each of those logistic regressions. The non-
significant variables are also listed below each table. In logistic regression, an odds ratio of 1 is considered neutral,
an odds ratio greater than one is considered a positive relationship and anything less than one indicates a negative
relationship. For example, obstetricians in the high prevalence strata are 1.73 times more likely not to face barriers in
offering testing during prenatal care.


Logistic Regression Model 1: No Barriers during Prenatal Care
Predicting that none of the barriers on our survey have ever prevented an obstetrician from offering HIV
testing during prenatal care.
 Independent Variable                                                                               Odds Ratio        p-value

 Positive Relationships:

 Obstetrician advises woman test will be performed but she can refuse                                    2.78               0.00

 Obstetrician received information/training on perinatal HIV from CDC                                    2.05               0.01

 Office/clinic has written policy on HIV testing of pregnant women                                       1.83               0.02

 High prevalence strata                                                                                  1.73               0.03

 Negative Relationships:

 Obstetrician not familiar with State laws                                                               0.35               0.00

 Obstetrician received information/training on perinatal HIV from State/local health                     0.57               0.04
 dept

 Practice setting is in a hospital                                                                       0.59               0.05




Reducing Barriers to HIV Testing                                   65                                              OEI-05-01-00260
Logistic Regression Model 2: No Language Barriers

Predicting an obstetrician will report that language has never been barrier to offering HIV testing during prenatal care.
This model includes only the subset of obstetricians who reported at least one barrier to testing.


                                                                                                    Odds
 Independent Variable                                                                               Ratio         p-value

 Positive Relationships:

 Obstetrician practices in an suburban location (compared to urban or rural)                           2.17             0.05

 Obstetrician received information/training on perinatal HIV from State/local                          1.93             0.09
 health dept

 Negative Relationship:

 Obstetrician routinely offers testing to prenatal patients                                            0.39             0.08


Non-significant variables in model: obstetrician received information/training on perinatal HIV from CDC; strata;
office/clinic has written policy on HIV testing; percentage of patients with no insurance; obstetrician provides patient
with written materials or video on HIV prior to testing


Logistic Regression Model 3: No “Late Entry into Prenatal Care” Barriers

Predicting an obstetrician will report that late entry has never been a barrier to offering HIV testing during
prenatal care. This model includes only the subset of obstetricians who reported at least one barrier to
testing.
                                                                                                    Odds
 Independent Variable                                                                               Ratio        p-value

 Positive Relationships:

 Obstetrician practices in an urban location (compared to rural)                                       4.66             0.06

 Obstetrician received information/training on perinatal HIV from their hospital                       3.66             0.01

 Obstetrician routinely offers testing to women in labor with unknown status                           2.61             0.05

 Percentage of patients with private insurance                                                         1.01             0.03

 Negative Relationship:

 Obstetrician routinely offers testing to prenatal patients                                            0.18             0.00
Non-significant variables in model: years since completion of residency; suburban practice location (compared to rural);
strata




Reducing Barriers to HIV Testing                                   66                                               OEI-05-01-00260
Logistic Regression Model 4: No Risk Assessment Barriers

Predicting an obstetrician will report that “patient population at low risk” has never been a barrier to offering HIV
testing during prenatal care. This model includes only the subset of obstetricians who reported at least one barrier to
testing.

 Independent Variable                                                                           Odds Ratio       p-value

 Positive Relationships:

 Obstetrician routinely offers testing to prenatal patients                                         6.93                0.02

 Office/clinic has written policy on HIV testing                                                    2.12                0.09

 Years since completion of residency                                                                1.06                0.03

 Negative Relationships:

 Obstetrician reported “concern about offending patient” as a barrier                               0.10                0.00

 Percentage of patients with private insurance                                                      0.98                0.02



Non-significant variables in model: suburban practice location (compared to rural); recommending testing (vs offering
testing) to women at low risk for HIV


Logistic Regression Model 5: Not Routinely Offering Testing during Labor

Predicting that obstetrician does not routinely offer testing to women in labor with unknown HIV status.

                                                                                                    Odds
 Independent Variable                                                                               Ratio        p-value

 Positive Relationships:

 Obstetrician reported a risk assessment barrier during prenatal care                                 5.07              0.00

 Obstetrician reported “late entry into prenatal care” as a barrier during prenatal                   2.84              0.01
 care

 Negative Relationships:

 Obstetrician advises woman test will be performed but she can refuse                                 0.25              0.00

 Obstetrician received information/training on perinatal HIV from hospital                            0.34              0.00

 High prevalence strata                                                                               0.66              0.07

 Obstetrician received information/training on perinatal HIV from a course (outside                   0.67              0.08
 hospital)
Non-significant variables in model: percentage of practice that is obstetrics; obstetrician received information/training
on perinatal HIV from CDC; obstetrician received information/training on perinatal HIV from State/local health dept




Reducing Barriers to HIV Testing                                   67                                              OEI-05-01-00260
Logistic Regression Model 6: No Barriers during Labor

Predicting that none of the barriers on our survey have ever prevented an obstetrician from offering HIV
testing to a woman of unknown status during labor.

                                                                                 Odds
 Independent Variable                                                            Ratio      p-value

 Positive Relationships:

 Obstetrician advises woman test will be performed but she can refuse              2.33           0.00

 Obstetrician received information/training on perinatal HIV from hospital         2.24           0.00

 High prevalence strata                                                            1.50           0.07

 Negative Relationships:

 Obstetrician reported a risk assessment barrier during prenatal care              0.31           0.00

 Obstetrician has ever cared for an HIV+ pregnant patient                          0.56           0.03

 Obstetrician not familiar with State laws                                         0.61           0.03
Non-significant variables in model: years since completion of residency




Reducing Barriers to HIV Testing                                 68                           OEI-05-01-00260
                                                                                          APPENDIX H



                                     Non-Response Analysis


     A consideration in survey analysis is that the results may be biased if non-respondents are significantly
     different from respondents. To determine whether such differences exist in this survey, we attempted
     to contact 60 non-respondents (30 from each strata) by telephone to ask them key questions from our
     survey. We randomly selected the 60 non-respondents and 60 replacements (in case we could not
     complete the interviews of the original 60) using a program called Rat-stats. Our office placed at least
     three phone calls to each of the 60 non-respondents and then to each of the 60 replacement non-
     respondents. Ultimately, we completed surveys for 30 practicing obstetricians. Additionally, we
     spoke with six non-respondents who do not currently practice obstetrics.

     Using the 30 completed surveys, we compared the two groups, respondents and non-respondents,
     with regards to demographics, testing patterns and prenatal barriers. We used chi-square tests of
     association to identify any significant differences between these two groups of obstetricians. We
     considered differences significant if p< 0.10. Table 1 displays the characteristics that did not differ
     significantly between non-respondents and respondents. Table 2 displays the significant differences
     between the two groups.

     Non-respondents did not vary from respondents in their test offering practices. Almost all
     obstetricians reported routinely offering testing to prenatal patients, and chi-square tests of association
     showed no significant difference between the reported test offering practices of respondents and non-
     respondents. Non-respondents' test offering practices in the labor and delivery setting also showed
     no significant differences from the respondents' practices during labor.

     Likewise, the non-respondents did not differ significantly from respondents in whether they reported
     any barriers to offering testing during prenatal care. Also, non-respondents did not differ significantly
     from respondents for two of the top barriers to prenatal test offering identified by our survey, “patient
     population is at low risk” and “late entry into prenatal care.”

     However, some other prenatal testing barriers did differ between the two groups. Notably, non-
     respondents reported language barriers less often than respondents did. This variation could suggest
     that a language barrier affects less than the 15 percent of the universe of obstetricians as reported by
     our survey respondents. Additionally, some barriers reported by a small percentage of respondents
     were not reported by any non-respondents, and therefore, demonstrated a significant difference
     between these groups.




Reducing Barriers to HIV Testing                       69                                     OEI-05-01-00260
                 Table 1: Variables showing NO Significant Difference between Respondents and
                                               Non-Respondents




                 Variable                                                                          p-value

                 whether ob routinely offers testing to all prenatal patients                          0.310

                 whether ob offers testing “never,” “sometimes/often” or “always” during               0.390
                 labor

                 whether ob reported any barriers during prenatal care                                 0.166

                 whether ob reported risk assessment barrier during prenatal care                      0.647

                 whether ob reported late entry into prenatal care as barrier                          0.207

                 whether ob concern about how to treat HIV+ woman as prenatal barrier                  0.418

                 whether ob reported “not standard of care in my hospital/clinic” as prenatal          0.232
                 barrier

                 whether ob practices in urban, suburban, rural or military location                   0.330

                 whether ob has ever cared for HIV+ pregnant patient                                   0.335



                   Table 2: Variables showing Significant Differences between Respondents and
                                                Non-Respondents



       Variable                                                       p-value       Respondents   Non-
                                                                                                  Respondents

       ob reported language barrier during prenatal care                 0.007      15%           3%

       ob is female                                                      0.006      48%           23%




Reducing Barriers to HIV Testing                                    70                                    OEI-05-01-00260
                                                                                                             APPENDIX J

                                         Endnotes 


1.         Ryan White CARE Act Amendments of 2000, Pub. L. No. 106-345, Title II, Sec. 213 (2000).

2.	        Lindegren, M.L., et al (1999). Trends in Perinatal Transmission of HIV/AIDS in the United States. JAMA,
           282, 531-538.

3.         Mofenson L.M., Lambert J.S., Stiehm E.R., et al. (1999). Risk factors for perinatal transmission of human
           immunodeficiency virus type 1 in women treated with zidovudine. New England Journal of Medicine, 341,
           385-93. Ioannidis J.P.A., Abrams E.J., Ammann A., et al. (2001). Perinatal transmission of human
           immunodeficiency virus type 1 by pregnant women with RNA viral loads less than 1,000 copies/ml. Journal
           of Infectious Disease, 183, 539-45. Garcia P.M., Kalish L.A., Pitt J., et al. (1999). Maternal levels of plasma
           human immunodeficiency virus type 1 RNA and the risk of perinatal transmission. New England Journal of
           Medicine, 341, 394-402.

4.	        American Academy of Pediatrics - American College of Obstetricians and Gynecologists Joint
           Statement on Human Immunodeficiency Virus Screening. (1999).

5.	         Stoto, M. A., Almario, D. A. & McCormick, M. C. (Eds.). (1999). Reducing the Odds: Preventing Perinatal
           Transmission of HIV in the United States. Washington, DC: National Academy Press.

6.         Ryan White CARE Act Amendments of 1996, Pub. L. No. 104-146 (1996).


7. 	       Centers for Disease Control and Prevention. (2001). Revised Recommendations for HIV Screening of
           Pregnant Women. Morbidity and Mortality Weekly Report, 50 (RR-19), 59-100.

8.	        Centers for Disease Control and Prevention. (1999). Prenatal Discussion of HIV Testing and Maternal HIV
           Testing — 14 States, 1996-1997. MMWR, 48(19), 401-404.


9.       Stoto, M. A., Almario, D. A. & McCormick, M. C. (Eds.). (1999). Reducing the Odds: Preventing                       Perinatal
Transmission of HIV in the United States. Washington, DC: National Academy Press.

10. 	      Compiled from the following sources: American College of Obstetricians and Gynecologists (2000).
           [National Obstetrician Perinatal HIV Survey, and North Carolina Obstetrician Perinatal HIV Survey].
           Unpublished raw data. Wilson, E. L., Hamm, R. H. & Kleier, K. M. (1998). Perinatal HIV Prevention: A
           Statewide Survey of Missouri Health Professionals About Critical Issues on Perinatal HIV Transmission.
           Missouri Epidemiologist, 20 (5), 1-6.

11. 	      Centers for Disease Control and Prevention. (2001). Morbidity and Mortality Weekly Report, 50
           (No. RR-6), 23.


12. 	      Centers for Disease Control and Prevention. (2001). Revised Recommendations for HIV Screening of
           Pregnant Women. Morbidity and Mortality Weekly Report, 50 (No. RR-19), 59-100.

13.        All infants born to HIV-infected mothers are HIV-exposed, but not all infants subsequently develop HIV .



Reducing Barriers to HIV Testing                                  79                                              OEI-05-01-00260
14.	       Lindegren, M.L., et al (1999). Trends in Perinatal Transmission of HIV/AIDS in the United States. JAMA,
           282, 531-538.

15.        Centers for Disease Control and Prevention. (2000, December). HIV/AIDS Surveillance Report, 12             (No.2);3
                                                                                                                      6.

16.	       Compiled from: Centers for Disease Control and Prevention. (2001). Revised Recommendations for HIV
           Screening of Pregnant Women. MMWR, 50(No. RR-19), pp. 59-85. Lindgren, ML, et al. (1999). Trends in
           Perinatal Transmission of HIV/AIDS in the United States., JAMA, 282 (6), 531-538.

17.	       Lindgren, ML, et al. (1999). Trends in Perinatal Transmission of HIV/AIDS in the United States., JAMA, 282
           (6), p. 531-538.

18.        Centers for Disease Control and Prevention. (2000, December). HIV/AIDS Surveillance Report, 12 (2), 9.


19.	       Lindegren, ML, Steinberg, S, & Byers, RH (2000). Epidemiology of HIV/AIDS in Children, HIV/AIDS in
           Infants, Children, and Adolescents, 47(1).

20.	       Lindegren, ML, Steinberg, S, & Byers, RH (2000). Epidemiology of HIV/AIDS in Children, HIV/AIDS in
           Infants, Children, and Adolescents, 47(1).

21.        Centers for Disease Control and Prevention. (2000). HIV/AIDS Surveillance Report, 12 (2), 7


22.        Centers for Disease Control and Prevention. (2000). HIV/AIDS Surveillance Report, 12 (2), 14.


23.	       Lindgren, ML, et al. (1999). Trends in Perinatal Transmission of HIV/AIDS in the United States., JAMA, 282
           (6), 531-538.

24.        Ibid.


25. 	      Health Resources Services Administration. (2001). Services for Children, Youth, Women, and Their
           Families (Title IV). (hab.hrsa.gov/care.html).

26.	       Centers for Disease Control and Prevention. Perinatal HIV Prevention Program.
           (www.cdc.gov/hiv/projects/perinatal/grantees.htm).

27. 	      Centers for Medicare & Medicaid Services. (2001). Fact Sheet: Medicaid and AIDS and HIV.
           (www.hcfa.gov/medicaid/obs11.htm).

28. 	      Centers for Medicare & Medicaid Services. Reducing HIV Transmission: The Maternal HIV Consumer
           Information Project. (www.hcfa.gov/hiv/subpg6.htm).

29.        Centers for Disease Control and Prevention. (2000, January 10). Meeting to Discuss Epidemioology
           Branch Projects for the Program to Maximally Reduce Perinatal HIV Transmission: American College of
           Obstetricians and Gynecologists. (www.cdc.gov/hiv/projects/perinatal/summarymeeting.htm).

30.	       Royce, RA, et al. (2001). Barriers to Universal Prenatal HIV Testing in 4 US Locations in 1997, American
           Journal of Public Health, 91(5), 727-733.




Reducing Barriers to HIV Testing                                80                                            OEI-05-01-00260
31.	       The Survey of Childbearing Women's primary objective was to determine the prevalence of HIV infection
           among women delivering live infants in the United States and to provide information about the
           demographics, location, and seroprevalence trends of this population over time. The survey was based on
           anonymous HIV testing of leftover blood specimens collected on filter paper for routine newborn metabolic
           screening and on existing public health programs in all areas conducting the survey. The survey was
           halted in 1995 after debate as to whether the testing should be unblinded in order to locate and treat
           newborns and their mothers determined to have HIV.

32. 	      The entire ACOG membership database contains 42,943 records. For the purposes of our sample selection a
           subset of Fellows, Junior Fellows in Practice, Junior Fellow Residents, Junior Fellow Resident/CREOG and
           Fellow Senior status was created. Also removed from the overall database were ACOG members whose
           prior mailings were returned due to a bad postal address, those members indicating that they never wish to
           receive mailings from ACOG and those members that indicated that they did not want their name published.
           This created a sampling frame of 32,161 obstetricians and gynecologists.

33.        Centers for Disease Control and Prevention. (2000). HIV/AIDS Surveillance Report, 12 (2), Table 1.


34.	       Centers for Disease Control and Prevention. (2000). HIV/AIDS Surveillance Report, 12 (2), Table 1, Table 2,
           Figure 5.

35.        Ranges do not sum precisely to 280-370 due to rounding of the individual estimates versus adding the
           estimates and then rounding the sum. All estimates are extrapolated from the CDC data. We adjusted
           CDC’s high and low estimates by +/- 10 percent and rounded up and down to the nearest 10. This
           presentation of estimated, rounded ranges of HIV-infected newborns is consistent with CDC’s presentation
           of the data. See Appendix D.

36.        Using data from medical record reviews includes an inherent assumption that the earliest HIV testing date
           for the mother found in the medical records is in fact the earliest test. However, this might not be the case.
           The mother may have had testing out-of-state, anonymously or had testing at another facility. Also,
           physicians may simply not have indicated on the records that and HIV test was recommended or
           conducted.

37. 	      Centers for Disease Control and Prevention. (2001). Morbidity and Mortality Weekly Report, 50
           (No. RR-6), 23.

38.        The survey question read, “To how many of your pregnant patients do you offer HIV testing?” and the
           response choices included “none,” “some,” “most,” or “all.” The obstetricians to whom this report refers
           to as “routinely” offering testing to pregnant women are those who indicated “all” to this question. It is
           noted, however, that some of the obstetricians who checked “all” also identified one or more barriers that
           have ever prevented them from offering an HIV test. We have interpreted this discrepancy by designating
           those who both checked “all” and indicated barriers as “routinely” offering testing but being subject to
           occasional exceptions to this standard practice.

39.	       Passel, J., & Zimmerman, W. (2001). Are Immigrants Leaving California? Settlement Patterns of Immigrants
           in the Late 1990's. Washington DC: Urban Institute.
           (http://www.urban.org/pdfs/are_immigrants_leaving_ca.pdf).

40. 	      The survey question read, “Do you offer HIV testing to women in labor with unknown HIV status?” and the
           response choices included “never,” “sometimes,” “often” and “always.” The obstetricians to whom this
           report refers to as “routinely” offering testing to women in labor with unknown status are those who
           indicated “always” to this question. It is noted, however, that some of the obstetricians who checked


Reducing Barriers to HIV Testing                                   81                                               OEI-05-01-00260
           “always” also identified one or more barriers that have ever prevented them from offering an HIV test
           during labor. We have interpreted this discrepancy by designating those who both checked “always” and
           indicated barriers as “routinely” offering testing but being subject to occasional exceptions to this standard
           practice.

41.	       There is still an argument for testing under these circumstances. First, the obstetrician may have time to
           suggest that the mother not breast-feed, a recommended preventive measure. Also, if the mother is HIV-
           infected, the CDC recommends initiating prophylactic treatment for the infant to protect against PCP, the
           most common cause of death for perinatally-infected babies.

42.      Stoto, M. A., Almario, D. A. & McCormick, M. C. (Eds.). (1999). Reducing the Odds: Preventing                      Perinatal
Transmission of HIV in the United States. Washington, DC: National Academy Press.

43.	       The fourteen languages are: English, Spanish, Bosnian, Chinese, French, Haitian Creole, Hmong,
           Japanese, Khmer, Korean, Portugese, Russian, Vietnamese and Yupik.




Reducing Barriers to HIV Testing                                    82                                              OEI-05-01-00260
                               ACKNOWLEDGMENTS

This report was prepared under the direction of William Moran, Regional Inspector General for
Evaluation and Inspections in Chicago and Natalie Cohen, Deputy Regional Inspector General. Other
principal Office of Evaluation and Inspections staff who contributed include:

Ann Maxwell, Project Leader                           Joe Rutherford, Program Specialist

Susan Otter, Lead Analyst                             Elise Stein, Director, Public Health and

Erin Bliss, Program Analyst                                  and Human Services Branch

Lisa Vasquez, Presidential Management Intern

Kristen Szewczyk, Intern


Technical Assistance

Robert Gibbons, Program Analyst, San Francisco
Deborah Harvey, Program Analyst, San Francisco




Reducing Barriers to HIV Testing                 83                                   OEI-05-01-00260
